<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                        WEDNESDAY, APRIL 9, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:03 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Cochran, Shelby, and Inouye.

                            DEFENSE AGENCIES

                         Missile Defense Agency

STATEMENT OF LIEUTENANT GENERAL RONALD T. KADISH, USAF, 
            DIRECTOR
ACCOMPANIED BY THOMAS P. CHRISTIE, DIRECTOR, OPERATIONAL TEST AND 
            EVALUATION

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Our distinguished co-chairman is stuck in 
traffic.
    General Kadish. So were we, sir.
    Senator Stevens. Since it took me a long time to get in 
this morning and I only live 5 miles away, I appreciate what 
you're saying. He has asked us to proceed, if that's all right, 
and we'll do that.
    We welcome you and Mr. Christie, General. Thank you for 
being with us. You're really a trusted partner in the whole 
endeavor for national missile defense, and I'm sure Senator 
Inouye will make similar comments. This capability that you 
have in Alaska is very encouraging to us and we plan to go up 
there as soon as possible. We had one trip scheduled and had to 
cancel it. Our staff will be going over to Hawaii in the coming 
recess to visit that area, and we know that there has been a 
great deal of change. If it's possible, we'd enjoy both of you 
coming to join us on our trip, but I'm not sure that will be 
possible. We haven't got it scheduled yet because of the 
problems we have in the appropriations process right now.
    We look forward to receiving an update from you, and 
Senator Inouye will make some comments when he comes in, but 
right now, I would appreciate it if you would proceed with your 
statement.
    General Kadish. Thank you, Senator. Good morning, Mr. 
Chairman, members of the committee. I would like to take just a 
few minutes to highlight some of the key points about our 
missile defense program that we have today and really 
underscore the progress we've made to date.
    And if you would allow that my prepared statement in its 
entirety be----

                        MISSILE DEFENSE PROGRAM

    Senator Stevens. Your statements will go in the record.
    General Kadish. In early 2001, we started restructuring the 
missile defense program to develop capabilities to defend the 
United States, our allies, our friends, and our deployed forces 
against all ranges of missiles in all phases of flight. With 
the support of Congress and in particular this committee, we 
have made considerable progression in demonstrating key missile 
defense technologies and the integration of those technologies 
into a system.
    Our testing analysis gives us confidence that hit-to-kill 
technology works and that we can take the initial steps we are 
proposing to provide a modest initial defensive capability 
where none exists today.
    Altogether, we have made great progress in our missile 
defense program. Our testing has been aggressive and 
productive. Over the past 2 years we achieved four for five 
successful ground-based intercepts of long-range targets and we 
are three for three in our sea-based intercepts of medium-range 
targets. We were five for seven with the Patriot Advanced 
Capability, or PAC-3 interceptor.
    We are making steady progress with the airborne laser to 
develop the revolutionary speed of light technologies, but we 
have had failures and in all probability, we will have some 
more failures in this process. But this score card has 
increased our confidence in our basic technical approach.
    Last December, the President directed the Department of 
Defense to field an initial set of missile defense capabilities 
in view of our technical progress, and our total lack of 
missile defenses against the intermediate and long-range 
ballistic missiles. Given our fielding approach using the 
testbed we have been working on, and given our testing 
successes and our analysis of those to date, I believe we are 
ready for this step. With the President's decision, we now have 
a clear basic near-term architecture for a limited system to 
address a range of missile threats.
    I want to stress that we have no fixed long-term 
architecture, however. We will evolve and improve the 
capability of the Block 04 system over time so that when we 
propose to field initially--so what we propose to field 
initially in fiscal year 2004 and fiscal year 2005 may evolve 
to look very different maybe a decade later.

           EVOLUTIONARY CAPABILITY-BASE ACQUISITION APPROACH

    The number and type of missile defense assets and their 
locations and basing parameters may be expected to change to 
make the system more integrated and more capable. This is 
consistent with the approach I have described in previous 
hearings. We are building and fielding limited military useful 
capabilities as soon as they can be made available.
    We have said all along that when we do field, we will not 
have a system that will fully meet our missile defense needs, 
so there are no illusions there. The system we will be fielding 
initially will be modestly operational, but we went down this 
road knowing we would need improvement and we have a process 
that's specifically designed to make those improvements as soon 
as practicable.
    With an evolutionary capability-based acquisition approach, 
we put capability into the field, we test it, use it, get 
comfortable with it, learn what works well and what doesn't, 
and improve it as soon as we can. Before the President's 
decision, the fiscal year 2004 President's budget would have 
reflected the development of a set of testbed capabilities that 
could have been made operational. Today we are asking Congress 
to authorize and appropriate funds to allow us to add to this 
testbed and make it operational in fiscal year 2004.

                          OPERATIONAL TESTBED

    In other words, instead of building a testbed that might be 
used operationally, we are fielding an initial defensive 
capability that we will continue to test. Because of this 
relationship between initial defense capability and testing, we 
are asking that all associated funding with both efforts be 
under the defense-wide appropriations funding.
    Now with respect to the issue of operational testing before 
deployment, I would argue that we are faced today with some 
timely issues. This is a unique and unprecedented technology in 
its early stages of maturity. We have to strike a balance 
between our desire for perfection in missile defenses that we 
employ and our desire to have as soon as possible some 
defensive capability which does not exist today.
    We can continue to test the elements and components of the 
system and we can use them to defend ourselves. I believe we 
can do this because we have shown that the nuts and bolts of 
the missile defense system and its capabilities we are funding 
to build upon Block 04 can work.
    Over the past 2 years, we have conducted a total of 55 
flight tests and 60 ground tests. Seventeen of these tests were 
intercept flight tests. These tests built our confidence. We 
know hit-to-kill works. We have had a significant degree of 
repeatability represented in the testing up to date, and we are 
well along our goal of demonstrating this reliability.
    Mr. Christie will state that our relationships, I believe, 
that we are building between Operational Test and the Missile 
Defense Agency are in good shape, and that we are structured to 
make the best decisions in the interests of missile defense.
    Regardless of the names we apply to our testing, we must 
have the assets and infrastructure in the field if we are going 
to begin to test the system in operationally realistic 
conditions. If we do not have the weapons and sensors fielded 
in operationally useful locations, we cannot really do a good 
job of looking at how they work. This program and its budget 
proposes to do just that.
    Our intentions are to test the complete system as soon as 
possible. Over the next 2 years we are planning another 68 
flight tests, 58 ground tests, and about the same number of 
intercept tests as before. We have done the testing and have 
confidence to proceed, and we want to continue to strike the 
right balance in the testing effort.
    The elements of the testbed will also have some inherent 
defensive capability. We can do operational testing while 
having the system on alert. We should take advantage of that.
    I believe, Mr. Chairman, that we are ready to take the next 
step in missile defense for another reason. Our testbed 
evolutionary approach to a missile defensive capability is 
rational from a cost standpoint as well. We do not now have 
adequate understanding of our long-term architecture to submit 
a budget committing tens of billions of dollars, and we don't 
need to submit such a budget to achieve our goals in the 
interim.

                            FIELD CAPABILITY

    We are able, however, to purchase a fielded capability, 
through small numbers, and this approach will allow us to 
control costs. With an increase of about $1.5 billion over 2 
years, we can provide this country with a modest missile 
defense capability where none exists today.
    Mr. Chairman, America's missile defense program is on 
track. The Missile Defense Agency is doing what we told 
Congress it would do, and your support has been important to 
the progress we have made. We listened to your concerns and we 
sought to address them in a responsible manner. Our tests and 
analysis have given us the confidence we can take the first 
steps toward initial defensive operations while we continue to 
prove out our technology and demonstrate missile defense combat 
utility through a realistic testing regime.

                           PREPARED STATEMENT

    I believe there are tremendous benefits in putting some 
threat-precedented technology into the field in manageable 
increments to provide some defense, to learn more about it and 
gain experience, and improve it over time. Thank you, Mr. 
Chairman, and I think I will stop there to allow more time for 
questions.
    [The statement follows:]
       Prepared Statement of Lieutenant General Ronald T. Kadish
    Good morning, Mr. Chairman, Members of the Committee. It is an 
honor to appear before you to present the Department of Defense's 
fiscal year 2004 Missile Defense Program and budget.
    In early 2001 we restructured the missile defense program to 
develop the capability to defend the United States, our allies and 
friends, and deployed forces against all ranges of missiles in all 
phases of flight. With the support of Congress, we have made 
considerable progress in demonstrating key ballistic missile defense 
(BMD) technologies and system integration. Our testing and analysis 
give us confidence that hit-to-kill technology works and that we can 
take the initial steps we are proposing to bolster defenses against 
short- and medium-range ballistic missiles and introduce a modest 
defensive capability to defeat a limited long-range threat. Today I 
will review our progress, discuss why we are confident in our approach, 
and outline our plans and challenges ahead.
    Over the past two years we have conducted several successful 
intercept tests. We achieved four for five successful long-range, 
Ground-based Midcourse Defense (GMD) intercept flight tests, 
demonstrating the hit-to-kill technologies of the Exo-atmospheric Kill 
Vehicle, critical sensor technologies, and the integration of many 
geographically dispersed missile defense assets. The failure of the 
most recent such test (Integrated Flight Test-10) last December 
resulted from the non-separation of the interceptor and the surrogate 
booster rocket. This was not a failure of new missile defense 
technology, but a failure of our quality control processes. We are 
increasing our already focused quality control efforts. We are taking 
steps to ensure this separation problem is not repeated. Furthermore, 
future GMD tests will no longer use the surrogate booster and instead 
will use one or both of the boosters currently under development.
    We are three for three in our ship-based exo-atmospheric intercept 
tests. Last year Aegis BMD successfully completed its Aegis Lightweight 
Exo-Atmospheric Projectile (LEAP) Intercept (ALI) project. Based on 
these results we accelerated the insertion of the follow-on Aegis BMD 
capability into the Test Bed. Our third intercept in November 2002 was 
the first ever intercept of a ballistic missile in the ascent phase of 
flight.
    Patriot Advanced Capability 3 (PAC-3) has made significant strides. 
Since January 2001, we have had five for seven successful intercepts of 
ballistic missile targets and have begun fielding the first PAC-3 
missiles. We also executed more than a dozen successful test flights of 
the Airborne Laser (ABL) aircraft, completed significant aircraft 
modifications, and accomplished successful subsystem testing and full-
up ground-tests of the first laser module. While we are in the 
difficult phase of integrating the components into the ABL, our 
progress to date has increased our confidence that ABL can eventually 
be integrated into the BMD system (BMDS).
    Mr. Chairman, America's missile defense program is on track. The 
Missile Defense Agency is doing what we told Congress it would do. We 
listened to your concerns and have sought to address them in a 
responsible manner. We have faced significant technical and management 
challenges, but through aggressive testing we have proven that hit-to-
kill technology works. We have demonstrated system integration through 
complex system testing. These tests, combined with analysis of 
simulations and exercises, give us confidence that the system can take 
the first steps toward initial defensive operations while performing as 
a test bed for further realistic testing and continued spiral 
development.
    The President's fiscal year 2004 budget will allow us to continue 
this significant progress and is structured to incorporate the 
recommendations of the Defense Science Board summer study of 2002.
Evolutionary Approach to Missile Defense
    The BMD system involves many sensors and interceptors that are 
integrated and layered to enable engagements against hostile missiles 
in the boost, midcourse, and terminal phases of flight. Layered 
defenses can allow multiple shot opportunities across all of the 
engagement segments and potentially within each one of those segments, 
greatly enhancing our ability to handle countermeasures and destroy in-
flight missiles and their payloads.
    As I have explained in past hearings, we are building the missile 
defense system using an evolutionary acquisition approach, so that the 
system's capability can be enhanced over time. Our plan continues to be 
one of incrementally providing the decision makers the ability to field 
militarily useful capabilities based on their technological readiness, 
suitability for operational use and threat developments.
    Last December the President directed the Department to field an 
initial set of missile defense capabilities in order to reduce the 
vulnerabilities of the United States, our troops, and our allies and 
friends. Given our fielding approach, and given the successful testing 
we have accomplished to date, I believe we are ready for this. The 
proposed budget for fiscal year 2004 and across the 2004-2009 Future 
Years Defense Program (FYDP) supports Research, Development, Test and 
Evaluation (RDT&E) activities to accomplish that goal. We plan to begin 
operating modest land and sea defense capabilities in 2004 to provide 
limited protection of our country as well as our troops and critical 
assets overseas.
    In missile defense, we deal routinely with revolutionary 
technologies and unprecedented engineering requirements. The program we 
are currently executing recognizes the unique challenges we face and 
sets out a disciplined course to develop the BMD system in an 
evolutionary way. Having spent the last couple of years looking at 
different missile defense options, we are now narrowing our program 
activities and focusing on development and fielding of the most 
promising elements.
    Consistent with the approach I have described in previous hearings, 
we are building and fielding limited, militarily useful capabilities as 
soon as they can be made available. This approach takes into account 
known and projected threats and the present state of technology. With a 
capability-based acquisition approach we put capability into the field, 
test it, use it, get comfortable with it, and learn what works well and 
what does not. We have structured Test Bed fielding opportunities to 
occur in ``blocks'' every two years to improve what we have fielded as 
needed. Block 2004 (initial defense capabilities) represents 2004-2005, 
Block 2006 represents 2006-2007, and so on. These blocks will deliver 
elements and components that are ready for continued rigorous testing 
and full integration into the system.
    With the President's decision, we now have a basic near-term 
architecture for a limited system to address a range of missile 
threats. I want to stress that we have no fixed, long-term 
architecture. We will evolve and improve the capability of the Block 
2004 system over time, so that what we propose to field initially in 
2004 and 2005 may evolve to look very different a decade later. The 
number and type of missile defense assets and their locations and 
basing arrangements may be expected to change to make the system more 
integrated and capable.
    We have adopted this evolutionary approach because a single 
acquisition cycle is not responsive to rapid changes in threat and 
technology and is not structured to deal with surprise. We want to 
avoid prematurely constraining system design by using the traditional 
requirements process and waiting up to twenty years or more for a 
defensive capability that would result from using traditional 
acquisition rules. In a world marked by increasing ballistic missile 
activity, our nation, forces, and allies cannot afford to wait that 
long.
    In using this evolutionary approach, we still have the ability to 
incorporate the discipline and intent of the traditional acquisition 
process. For example, the warfighting community has been heavily 
involved from the beginning in the development of system elements and 
components. We are successfully using a spiral development process to 
put new technologies into play more quickly than if we were to use the 
traditional approach. Spiral development requires regular dialogue and 
active participation between user and developer for delivering a 
militarily useful set of capabilities. Once we field the initial 
capability, uniformed personnel will operate the system.
    Despite the many uncertainties we face, this approach allows us to 
be good stewards of the taxpayers' money. The President's recent 
announcement stands as a good example of this. We are not making an 
early commitment to large-volume serial production and very large-scale 
investments. Our fielding commitment will be scaled over time and rise 
with our confidence that we are on the right development path for this 
complex, multifaceted system.
Aggressive Research, Development and Test Activities
    As we prepare to implement the President's directive, we plan to 
continue the program's intensive testing activities up to and beyond 
the 2004-2005 timeframe. We have a single, robust RDT&E program 
dedicated to the development and demonstration of missile defense 
technologies and integration concepts. In fact, consistent with our 
investments over the past two years, the lion's share of the fiscal 
year 2004 budget request of $7.7 billion for the Missile Defense 
Agency, roughly $6 billion, will support RDT&E activities that are not 
directly tied to system fielding. Significant development efforts in 
fiscal year 2004 include continued work on Theater High Altitude Area 
Defense (THAAD), ABL, and kinetic energy boost-phase interceptors in 
the post-Anti-Ballistic Missile (ABM) Treaty environment.
    These aggressive RDT&E activities are the basis for proceeding as 
the President has directed and for continuing development work to build 
a multi-layered BMD system. We will continue our practice of assessing 
these activities on a regular basis to see if they can be accelerated 
or whether they must be truncated or modified in some manner. RDT&E 
activities occurring in fiscal year 2004 will contribute to Blocks 
2004, 2006, 2008 and 2010.
    We are still evaluating the impact of our withdrawal from the ABM 
Treaty. The treaty successfully did what it was intended to do. It 
severely restricted missile defense development and fielding options. 
The President's action has made it possible to begin to develop and 
test aggressively the full range of missile defense technologies and 
pursue capabilities that make the most sense from the standpoints of 
technology, operations, and cost.
    For example, as a result of the treaty withdrawal, Aegis BMD, the 
sea-based defense element, began its successful participation in GMD 
integrated flight tests conducted last October and December. While 
initially only collecting boost and ascent phase radar data, Aegis BMD 
has begun engineering efforts to become a full participant in future 
tests and will eventually provide fire control data to the BMD system.
    Our intercept tests against long-range ballistic missiles are very 
complex, yet since October 1999 we were forced to restrict ourselves to 
the same intercept flight geometries because of artificial constraints 
in our current Test Bed and our obligation to remain compliant with the 
ABM Treaty. Today, in order to test our GMD interceptors, we must 
launch targets from Vandenberg, AFB in California and interceptors from 
Kwajalein Atoll in the Pacific Ocean. We are changing that. The Test 
Bed we are building will introduce flexibility into our test approach 
and help overcome some basic geographic and geometric limitations by 
allowing us to test weapons and sensors against ballistic missiles of 
all ranges along different azimuths and using different trajectories. 
For test purposes we will introduce variable target launch and impact 
points and engagement areas.
    Robust, realistic testing is absolutely critical to developing an 
effective missile defense system. Over the past two years we conducted 
a total of 55 flight tests and 60 ground tests. Seventeen of these 
tests were flight-intercept tests. Each test builds our confidence in 
the BMD system. From our flight-testing, we know that the hit-to-kill 
approach works. We know our sensors can successfully detect and track 
the target and that our software algorithms can discriminate between 
reentry vehicles and basic decoys and debris. We know our battle 
management system can generate orders that put a kill vehicle in a 
position to achieve intercept. We will continue to refine and improve 
the system's performance in all areas. Our test program continues to 
add to our confidence that the basic technologies are sound and that 
they will work together to provide the nation an effective BMD system.
    Our program and budget will continue to maintain a high tempo of 
increasingly complex ground- and flight-testing. Over the next two 
years we are planning another 68 flight tests, 58 ground tests, and 
maintaining the same pace of intercept tests as before. We do system 
testing to give us confidence that we have the ability to integrate 
geographically dispersed missile defense elements and components into 
an effective system. This does not include the many experiments we 
conduct routinely, the modeling and simulation activity, and the 
wargame exercises. Our computer predictions are very valuable in this 
process and give us a great deal of confidence that we are on the right 
paths.
    We remain committed to our aggressive testing approach, where we 
mature midcourse, boost, and terminal missile defense components and 
elements through rigorous testing under increasingly realistic and 
challenging conditions. When we have adequately demonstrated 
technologies, decisions can then be made concerning their integration 
into blocks for fielding. Testing activities remain central to what we 
do and are well supported within our funding request.
Initial Defense Capabilities
    The Congress has already funded plans to put five midcourse 
interceptors into the test bed in silos at Fort Greely in Alaska, 
develop Aegis BMD, and test the SM-3 interceptor at the Pacific Missile 
Range Facility in Hawaii. Other activities are currently underway to 
improve the missile defense Test Bed by upgrading or developing launch 
sites (including Vandenberg, AFB), radar sensors, battle management and 
command and control components, communications terminals and networks, 
and associated test infrastructure in the United States and the 
Marshall Islands (including airborne, sea-based, and ground-based data 
collection assets).
    Today we are asking the Congress to appropriate funds that will 
allow us to add to this Test Bed and make it operational by 2004. These 
initial defense capabilities, fielded over a two-year period, will 
include ground-based interceptors to counter long-range threats, sea-
based interceptors to defeat short- and medium-range threats, 
additional PAC-3 units, and early warning and tracking sensors based on 
land, at sea, in the air, and in space.
    Before the President's decision, the fiscal year 2004 President's 
Budget would have reflected the development of a set of Test Bed 
capabilities that could have been made operational. Instead of building 
a Test Bed that might be used operationally, we are fielding an initial 
defensive capability that we will continue to test. All RDT&E 
activities will support the initial defense capability, and the system 
elements and components we field will continue to support RDT&E. 
Because of the relationship between initial defense capabilities and 
testing, we are asking that all funding associated with both efforts be 
under Defense-wide appropriations RDT&E. With the December announcement 
we have quickened the pace at which we are moving forward, but we have 
not changed the direction in which we are moving.
    We are proposing to do in fiscal year 2004 what we said we were 
going to do in previous hearings, that is, field tested missile 
defenses a little at a time using a step approach. The missile defense 
operations we are proposing are unprecedented, and there still is much 
to learn. I believe there is tremendous benefit in putting this 
unprecedented technology into the field, in manageable increments, to 
provide some defense, to learn more about it, gain experience with it, 
and improve it over time.
    The Israeli Arrow program stands out as an example of how fielding 
militarily useful capability in block increments and in a timely manner 
can work and how successful it can be. With only four successful 
intercept flight tests, Israeli officials declared their first Arrow 
battery operational on October 17, 2000 and fielded that country's 
first capability to defeat incoming ballistic missiles launched from 
nearby states. The Israeli system has been operational for more than 
two years now, and during that time it has conducted additional 
intercept and flight tests to enhance the system's performance. Plans 
are moving forward to augment it even further. Surrounded by states 
having an active interest in ballistic missiles, Israel found a way to 
field a limited defensive capability on an accelerated timeline and at 
a time when it could not afford to wait for system testing to be 
completed.
    We in the United States, of course, are not strangers to fielding 
an unprecedented military capability on an accelerated schedule. Our 
leadership struggled in the early stages of deploying the first 
reconnaissance satellites and land- and sea-based ballistic missiles. 
Urgent national security requirements pressed us to deploy capability 
soon, and through trial and error we did. Despite test failures, the 
country persevered and made militarily useful capabilities operational. 
Since that time, we have dramatically improved the capabilities of 
those first-generation systems. The parallels between these pioneering 
programs and the missile defense program are clear.
    I believe, Mr. Chairman, that we are ready to take this next step 
in missile defense. Our fielding approach will not only help 
rationalize the force structure we deploy from the technological and 
threat standpoints, but also from the standpoint of cost. We do not now 
have adequate understanding to submit a bill of many tens of billions 
of dollars for a huge, long-term fixed architecture. We are able, 
however, to purchase, produce, and field capabilities in small numbers. 
This approach will allow us to control costs. With a modest investment 
and increase by the Department of a total of $1.5 billion spread over 
the fiscal year 2004 and 2005 budgets, we will provide this country 
with militarily useful capabilities where none exists today.
    In short, this $1.5 billion primarily will add a small number of 
ground-based interceptors as well as more SM-3 interceptors to the test 
bed capability we are already building. Future fielding decisions, as 
we have said all along, will be made in the outlying years based on the 
progress of technology and the evolution of the threat, subject to the 
annual congressional appropriations process.
Confidence in Initial Defensive Operations
    In assessing our level of confidence with the planned initial 
missile defense capabilities, we have to strike a balance between our 
desire for perfection in the missile defenses we deploy and our desire 
to have as soon as possible a defensive capability where none exists 
today.
    Adequate testing is the key to achieving that balance. And while 
this testing may not fit the mold of classical operational testing that 
would traditionally take place prior to full-rate production, we do 
follow a testing discipline that I believe can give us the confidence 
to say that what we deploy will work as we have said it would under 
threat circumstances that we believe we might have to face.
    I believe that to strike the right balance we must go through an 
intense period of testing to demonstrate that the technologies on which 
we are relying can work consistently under conditions that are 
increasingly stressful and realistic. We have spent the past two years 
demonstrating the technologies we propose to employ in the Block 2004 
Test Bed. We have said all along that when we do field we will not 
field a system that will fully meet our missile defense needs. We will 
face limitations and have gaps, let there be no illusions there. The 
system we are initially fielding will be limited operationally. But we 
went down this road knowing that there would be gaps and with a process 
that is specifically designed to fill those gaps and make up for 
performance limitations as soon as practicable.
    Among the limitations that should be included here is that of 
operational experience. We need to build operational experience over 
time with the system that will be guarding our nation and our troops. 
There is no better way to do that then to put basic elements out into 
the field and to begin working with those assets to develop the 
doctrine and concepts of operation we will need and to train the 
military personnel who will operate it.
    We have spent significant amounts of money on testing the GMD and 
Aegis BMD elements of system. All of the tests to date have been what 
we have called ``developmental tests.'' Regardless of the names we 
apply to our testing, we must have assets and infrastructure in the 
field if we are going to begin to test that system under operationally 
realistic conditions. If we do not have the weapons and sensors fielded 
at operationally useful locations, we cannot really do a good job of 
hooking it all up to make sure it works.
    The President's decision allows us to put this materiel out in the 
field for testing, in locations that make sense from an operational 
point of view. Given the recent events in the international security 
environment, the President's decision reflects an urgent need to make 
that test bed as operational as we possibly can. That decision also 
recognizes that we will not be fielding the perfect system at the 
outset.
    What we are faced with today is a timing issue. Must we do what has 
been traditionally called ``operational testing'' before we can say 
that we have a capability we can use in an extreme security situation, 
or can we do both? Can we continue to test the elements and components 
of a system we also could use to defend ourselves if needed? I believe 
we can.
    Why do I believe that? Because we have shown that the nuts and 
bolts of the missile defense capabilities we are planning to field in 
Block 2004 can work. We have had a significant degree of repeatability 
represented in the tests we have conducted to date, and we are well 
along in our goal of conducting these tests reliably. We are now to the 
point where we need to assemble selected missile defense elements into 
a test bed that will permit operationally realistic testing using 
different azimuths and trajectories, different launch and target 
points, and different arrangements in our sensors and weapons. That 
test bed will allow us to test in different ways so that we can refine 
our all-too-important battle management and command and control 
infrastructure. The elements of the test bed also will have some 
inherent defense capability. We can do operational development testing 
while having the system on alert. We should take advantage of that.
    Our intentions are to test the complete system and to be ready to 
respond to ballistic missile threats against the United States, our 
deployed forces, and our friends and allies. We have conducted the 
rigorous testing needed to give us the confidence that we are far 
enough along to do operationally realistic testing in an integrated 
way. Testing will always be an important part of this system--always. 
We will always be improving what we have in the field. The budget we 
have submitted will support the testing required to ensure that the 
elements of the Block 2004 system we would like to field will 
adequately serve the defense needs of this nation.
    Our RDT&E activities are extensive and are important part of our 
acquisition approach. Below are three areas of special interest.
            BMD System Radar Activity
    The MDA's Family of Radar concept is continuous and flexible global 
detection, tracking, discrimination, and hit assessment. Ideally, we 
want to be able to watch missile payloads deploy and accomplish prompt 
and early battle assessment. We are currently pursuing multiple sensor 
technologies and identifying and developing sensors to give the BMD 
system the ``eyes'' it will need. In order to identify the most 
promising technologies and reduce risk, we are investigating, in 
parallel, sensor alternatives on land-, sea-, air- and space-based 
platforms to add robustness to the BMD system and improve opportunities 
to collect multiple phenomenology on the threat missile or target 
complex. Evaluations of different sensor and weapon combinations and 
alternatives will help us assess their overall benefit to an 
integrated, layered BMD system. An important element in this effort is 
the mobile Sea-Based X-Band radar (SBX), which we plan to build by 
September 2005 to greatly improve both testing and our initial defense 
capability.
    The BMDS Radar project, a new activity, is funded in the fiscal 
year 2004 budget to expand the engagement battle space and assess 
missile defense concepts of operation that we were not allowed to 
consider under the ABM Treaty. We will validate the concept of forward-
basing and sensor layering and evaluate advanced algorithms using both 
MDA- and non-MDA-owned sensors. Current plans call for the BMDS Radar 
to be available for integration into the Test Bed in late 2006. We will 
support continuous sensor research to improve capabilities and develop 
advanced algorithms for Block 2008 and beyond.
            BMD System Infrared Sensor Activities
    The Department restructured the Space Based Infrared System-Low 
(SBIRS Low) element in fiscal year 2002, renaming it the Space Tracking 
and Surveillance System (STSS). We will explore new technologies to 
enhance missile detection, improve reporting on ballistic missile 
launches regardless of range, azimuth, or launch point, and provide 
critical midcourse tracking and discrimination data.
    The Russian-American Observation Satellites (RAMOS) project is a 
cooperative effort between the United States and the Russian Federation 
to improve early warning technologies. RAMOS represents an innovative 
space-based sensor R&D initiative. We are proceeding towards a joint 
Preliminary Design Review this summer and expect to conclude the design 
and development phase in early fiscal year 2005. The United States is 
actively striving to reach a bi-lateral agreement to conduct activities 
beyond the design and development phase. If we are able to move forward 
with this project, we would launch two satellites in late fiscal year 
2008.
            BMD System Interceptor Activity
    Our longer-term goal is to develop low-cost enhanced interceptors 
for integration with different platforms to defend against missiles in 
the boost, midcourse, and exo-atmospheric terminal phases of flight. We 
are consolidating all next-generation kinetic energy interceptor 
(booster and kill vehicle) development efforts and placing them under 
our BMDS Interceptor activity. Relying heavily on existing hardware and 
proven technology, we will develop a hit-to-kill boost phase capability 
by Block 2008 and deliver capability enhancements for Block 2010 and 
beyond.
    In fiscal year 2004 we will begin developing a space-based kinetic 
energy interceptor Test Bed to explore the technological feasibility 
and operational advantages of engagements from space. This plan is 
consistent with the Defense Science Board's recommendation, released 
last August, to establish a comprehensive development program for a 
space-based kinetic system. Following up on last year's successful 
experiments to understand key sensor technologies, we will conduct in 
2004 a Near Field Infra-Red Experiment to observe from space a boosting 
rocket. This data will assist in the selection of seeker and sensor 
technologies for a ground-based boost interceptor and development of 
interceptor guidance and homing algorithms.
Block Activities and Budget
    We are working within the MDA and with the Department's operational 
community to meet the President's objective to establish an initial 
defense capability in 2004, which begins with Block 2004. The following 
describes by block our planned fielding opportunities across the FYDP.
            Block 2004
    This block continues development and integration of elements, 
components, and facilities in the Test Bed. Block 2004 RDT&E funding 
will deliver capabilities directed by the President for operational use 
in fiscal year 2004-2005. We plan to add different capabilities to 
point-defense capabilities already provided by PAC-3 units. This 
initial fielding will grow the RDT&E program and expand the physical 
infrastructure of the Test Bed.
    Funds in this block will enable us to conduct major target and 
countermeasure development and capability demonstrations, integration 
tests, and experiments. We are investing in a substantive system test 
program to test system command, control, and battle management (C\2\BM) 
and communications across the elements. The Block 2004 Master Test Plan 
lays out the strategy for conducting a comprehensive set of integrated 
and distributed ground- and flight-tests to verify performance and 
characterize the capability of the system. This test program will form 
the basis of operational and military utility assessments of the Block 
2004 initial defense capability.
    We will have three major system integration flight tests, the first 
of which is a large-scale integration event that tests C\2\BM and 
communications during multiple element intercept tests. We plan to 
demonstrate C\2\ capabilities and communications among C\2\ and battle 
management nodes, weapons, and sensors and to continue work with the 
Services, Combatant Commands, and the Office of the Secretary of 
Defense to ensure BMD system interoperability with legacy and planned 
Department systems and standards.
    We are requesting $3.2 billion in fiscal year 2004 to support RDT&E 
for fielding Block 2004. Our estimated expenditure for Block 2004 
activities across the FYDP is $6.2 billion (see Table 1).

                                                    TABLE 1.--BLOCK 2004 FUNDING FISCAL YEAR 2002-09
                                                                   ($M then-year) \1\
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                       Fiscal year--                                    FYDP     Totals
                                                     --------------------------------------------------------------------------------  fiscal    fiscal
                       Project                                                                                                          year      year
                                                        2002      2003      2004      2005      2006      2007      2008      2009     2004-09   2002-09
--------------------------------------------------------------------------------------------------------------------------------------------------------
C\2\BMC Block 2004..................................        21        80       114        79  ........  ........  ........  ........       194       295
Hercules Block 2004.................................  ........  ........        18        27  ........  ........  ........  ........        46        46
Joint Warfighter Support Block 2004.................  ........  ........        24        13  ........  ........  ........  ........        37        37
Test & Evaluation Block 2004........................        47        57        37        33  ........  ........  ........  ........        70       174
Targets & CM Block 2004.............................        75       104       197       170  ........  ........  ........  ........       367       547
THAAD Block 2004....................................       808       888       622       635        65  ........  ........  ........     1,322     3,018
GMD Test Bed Block 2004.............................       636       452     1,205       868  ........  ........  ........  ........     2,073     3,161
Aegis BMD Test Bed Block 2004.......................       413       440       648       894        98  ........  ........  ........     1,640     2,492
ABL Block 2004......................................       454       348       345       150  ........  ........  ........  ........       494     1,296
                                                     ---------------------------------------------------------------------------------------------------
      TOTALS........................................     2,454     2,369     3,212     2,868       163  ........  ........  ........     6,242    11,065
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Numbers may not add exactly due to rounding.

    Boost Elements.--We are developing directed energy and kinetic 
energy boost phase intercept capabilities to create a defense layer 
near the hostile missile's launch point. We require quick reaction 
times, high confidence decision-making, and redundant engagement 
capabilities to counter ballistic missiles in this phase.
    ABL is currently under development to acquire, track, and kill 
ballistic missiles in boost phase using speed-of-light technology. ABL 
integrates three major subsystems (Laser; Beam Control; and Battle 
Management, Command, Control, Communications, Computers and 
Intelligence (BM/C\4\I)) into a modified commercial Boeing 747-400F 
aircraft. We will continue major subsystem integration and testing 
activities. Block 2004 activities involve completion of ground-testing, 
to include first light on the test bed aircraft, first flight of the 
complete weapons system, and the successful track and high-energy laser 
engagement of a missile-shaped target board dropped from high-altitude. 
In fiscal year 2005, we will deliver one aircraft for BMD system 
integration and testing and demonstrate a missile shoot-down against a 
boosting threat-representative target.
    Midcourse Elements.--Midcourse defense elements engage ballistic 
missiles in space after booster burnout and before the warhead re-
enters the atmosphere. The GMD element defends against long-range 
ballistic missile attacks, and Aegis BMD will counter from the sea 
medium- and short-range ballistic missiles.
    The Department's plans are to add by the end of fiscal year 2004 
one more Ground-Based Interceptor (GBI) at Fort Greely in Alaska for a 
total of six GBIs at that site, and four interceptors at Vandenberg Air 
Force Base, for a total of up to 10 interceptors at both sites. The 
decision to develop two interceptor sites is consistent with our 
layered approach and operational concept and will allow us to work 
through critical integration, battle management, and command and 
control issues early on.
    There are a number of other activities we need to undertake in 
fiscal year 2005. We are asking for appropriations to produce up to ten 
additional GBIs for fielding at the Fort Greely site, for a total of 
sixteen interceptors in Alaska and four in California. We also plan to 
produce by the end of 2005 between ten and twenty SM-3 missiles for 
deployment on three Aegis ships converted to the missile defense 
mission. Because we are starting from a base of zero, each interceptor 
we field between now and 2005, up to the full complement of twenty 
ground-based and twenty sea-based interceptors, will increase 
significantly our overall capability to defend this country, our 
troops, and friendly countries against long- and medium-range threats.
    Included in the Test Bed and as part of the initial missile defense 
architecture are plans for integrating Early Warning Radars (EWR) at 
Eareckson AS (the Cobra Dane radar at Shemya, Alaska) and Beale AFB 
(Upgraded EWR). We will add to this infrastructure multiple fire 
control nodes and improved lines of communications connecting sites in 
Alaska and the continental United States using fiber optics and 
satellites. As you know, the Administration is working to secure allied 
approval to upgrade and integrate into the BMD system early warning 
radars currently located in the United Kingdom and Thule, Greenland to 
view threat missiles launched out of the Middle East. The United 
Kingdom already has approved the use of the Fylingdales radar. We also 
plan to build by September 30, 2005 a Sea-Based X-Band Radar (SBX) to 
improve the testing regime and enhance initial missile defense system 
performance.
    We have made dramatic progress in recent months with the GMD 
element, including in the areas of silo construction, development of a 
nationwide communications network, and integrated flight-testing. We 
have excavated six silos at Fort Greely, seven weeks ahead of schedule, 
and we are in the process of constructing and establishing appropriate 
security for multiple Test Bed facilities at Fort Greely and Eareckson.
    By the end of 2005, we will upgrade SPY-1 radars on fifteen Aegis 
warships for enhanced surveillance and track capability. Three 
prototype surveillance and track Aegis destroyers will be available 
starting in 2003; we will modernize additional destroyers for 
surveillance and track and BMD engagement capability. Two Aegis 
cruisers in addition to the USS LAKE ERIE, our test cruiser, will 
receive BMD engagement modifications.
    The next SM-3 flight test, scheduled for later this year, will use 
a reengineered Monolithic Divert and Attitude Control System (MDACS) 
for the first time in the interceptor's kinetic warhead. MDACS has 
proved to be more reliable than the previous model, faster to build, 
and less expensive. Five at-sea flight tests and numerous tracking 
exercises, including participation in GMD integrated flight-tests, are 
planned through 2005. Our cooperative research with Japan will continue 
to enhance the capabilities of the SM-3 interceptor. The focus of that 
research is on four components: sensor, advanced kinetic warhead, 
second stage propulsion, and lightweight nosecone.
    Terminal Elements.--THAAD is designed to be rapidly deployable and 
protect forward-deployed United States and friendly troops, broadly 
dispersed assets, population centers, and sites in the United States by 
engaging short- to medium-range ballistic missiles or their payloads at 
endo- and exo-atmospheric altitudes. THAAD could have more than one 
intercept opportunity against a target, a layering potential that makes 
it more difficult for an adversary to employ countermeasures 
effectively. This terminal defense capability will help mitigate the 
effects of a WMD payload.
    This year we will complete missile and launcher designs, initiate 
manufacturing of missile and launcher ground test units, and begin 
testing the first completed radar antenna. We will continue fabrication 
of the second radar and building the battle manager and launcher test 
beds. A total of four exo-atmospheric flight tests at the White Sands 
Missile Range, New Mexico are planned for fiscal year 2004-05.
    PAC-3 provides terminal missile defense capability against short- 
and medium-range ballistic missiles, anti-radiation missiles, and 
aircraft with a low radar cross-section employing advanced 
countermeasures. PAC-3 successfully completed initial operational 
testing last year, intercepting ballistic missiles, aircraft, and 
cruise missiles. The tests uncovered problems that we have since 
corrected in collaboration with the Army. We have completed development 
of the PAC-3 missile and made C\2\BM modifications to enable PAC-3's 
integration into the BMD system. We will continue to conduct PAC-3 
tests this year. Later in Block 2004 we will demonstrate PAC-3's 
integration with other BMD system elements.
    With the support of Congress, the Department already has 
accelerated PAC-3 missile production and currently has a plan to 
increase that production rate to 20 missiles per month in 2005. Given 
current production plans, by the end of 2005 the PAC-3 inventory will 
stand at 332 missiles.
    The Department has transferred PAC-3 procurement and RDT&E funding 
to the Army, which is reflected in the Army's fiscal year 2004 budget 
request. The MDA will retain responsibility for defining and testing 
BMD system interoperability and continue to work with the Army on PAC-3 
engineering, development, and testing. The Department realigned the 
Medium Extended Air Defense System (MEADS) program on March 31, 2003 to 
the Army.
    The Arrow Weapon System, developed jointly by the United States and 
Israel to counter short- to medium-range ballistic missiles, is 
operational at two sites in Israel and interoperable with U.S. missile 
defense elements. We worked with Israel to deploy its first two Arrow 
batteries, and are currently assisting that country to procure a third 
battery.
    The Arrow System Improvement Program, a spiral development upgrade 
of the current operational system, includes technical cooperation to 
improve the performance of the Arrow system and test it at a U.S. test 
range. The first flight test was conducted successfully on January 5, 
2003. We continue to support additional Arrow flight-testing to assess 
technology developments and overall system performance and to collect 
data and conduct annual hardware-in-the-loop exercises with Israel to 
enhance interoperability.
            Block 2006
    Block 2006 work continues to improve existing capabilities and 
provide new sensors and interceptors for integration with fielded 
elements. Our focus will be on evolving and integrating the capability 
to achieve a more synergistic and layered BMD system. We will continue 
rigorous system and element flight-test demonstration and validation 
efforts and use wargames to help develop concepts of operation and 
operational procedures.
    We are requesting $2.2 billion in fiscal year 2004 to support RDT&E 
for Block 2006. Our estimated expenditure for Block 2006 activities 
across the FYDP is $11.3 billion (see Table 2).

                                                    TABLE 2.--BLOCK 2006 FUNDING FISCAL YEAR 2002-09
                                                                   ($M then-year) \1\
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                       Fiscal year--                                    FYDP     Totals
                                                     --------------------------------------------------------------------------------  fiscal    fiscal
                       Project                                                                                                          year      year
                                                        2002      2003      2004      2005      2006      2007      2008      2009     2004-09   2002-09
--------------------------------------------------------------------------------------------------------------------------------------------------------
C\2\BMC Block 2006..................................         4        27        53       104       116  ........  ........  ........       273       304
Hercules Block 2006.................................  ........  ........        19        18        45        45  ........  ........       127       127
Joint Warfighter Support Block 2006.................  ........  ........  ........        12        24        12  ........  ........        48        48
Test & Evaluation Block 2006........................         1         1         2         9        41        39  ........  ........        92        93
Targets & CM Block 2006.............................         1         4        32       110       213       172  ........  ........       526       530
THAAD Block 2006....................................  ........  ........       109       208       598       498       113  ........     1,525     1,525
GMD Block 2006......................................     2,460     2,109     1,605     1,774     1,354     1,235  ........  ........     5,969    10,538
Aegis BMD Block 2006................................  ........  ........        24        73       377       299  ........  ........       773       773
ABL Block 2006......................................  ........  ........        10        86       150        79        81        55       461       461
BMDS Radars Block 2006..............................  ........  ........       101       145       134  ........  ........  ........       380       380
STSS Block 2006.....................................        55       232       276       285       285       204        75        35     1,160     1,447
                                                     ---------------------------------------------------------------------------------------------------
      TOTAL.........................................     2,520     2,372     2,232     2,823     3,335     2,583       270        90    11,333    16,225
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Numbers may not add exactly due to rounding.

    Boost Elements.--We will enhance and test the integration of the 
ABL aircraft into the BMD system. Candidate enhancements include 
improvements in BMC\4\I, interoperability, pointing and tracking, and 
target engagement. We will continue evaluation of the ABL test aircraft 
capability against a range of threats. This aircraft will be available 
to provide an emergency operational capability except for a maximum of 
six months during fiscal year 2007 when it may undergo modifications 
and enhancements.
    Midcourse Elements.--We plan to enhance defensive capability and 
further develop the Test Bed by maturing hardware and software of all 
GMD interceptor, sensor, and C\2\BM components. We will continue our 
ground- and flight-testing to demonstrate improved weapon and 
discrimination performance and critical interfaces with external 
sensors. We also plan to complete the upgrade of the Thule EWR should 
we get approval from Denmark.
    Aegis BMD flight missions will incorporate remote engagements of 
targets as well as demonstrations against intermediate-range ballistic 
missile (IRBM) targets. We will continue development of Aegis BMD 
sensor discrimination capability. Prototype BMD signal processors will 
be tested aboard Aegis ships with SPY-1 radar modifications. SM-3 
missile deliveries will begin in 2004. Our plans are to build an 
inventory of up to thirty-five SM-3 interceptors by the end of 2006. 
Also, if directed, we would prepare to field up to twenty additional 
SM-3 interceptors in 2007. We will proceed with our cooperative BMD 
research with Japan to enhance the SM-3. We have two joint flight tests 
of the advanced nosecone planned in the fiscal year 2005-2006 
timeframe, and we will continue to look at possibilities for co-
development.
    Terminal Elements.--The THAAD interceptor begins in the third 
quarter fiscal year 2006 a series of five flight tests that are 
scheduled to conclude in first quarter fiscal year 2008. We will 
improve THAAD's exo-atmospheric and endo-atmospheric endgame 
discrimination capability against increasingly complex targets.
    Sensors.--Current plans call for a new forward-based radar in late 
2006 for positioning close to the threat at sea or on land. Enhanced 
forward-based sensor capabilities and improved sensor netting will 
enable the BMD system to handle threats posing a more difficult 
discrimination challenge and provide a launch-on-remote capability. A 
midcourse radar will be added as part of our layered approach. 
Additional radar configurations will be procured as necessary to 
satisfy Block 2006 objectives.
    Current plans are to launch two low-earth orbit satellites in 
fiscal year 2007 to validate space-based sensor concepts for target 
acquisition, tracking, and discrimination and to provide a space node 
for the Test Bed. STSS will improve in subsequent blocks to provide 
data fusion, radar/sensor cueing over-the-horizon, and interceptor 
handover and fire control. Production alternatives will be evaluated at 
least annually based upon element performance and integrated BMD system 
performance.
            Block 2008
    Block 2008 represents a major step in BMD system evolution. We plan 
to complete multiple layers of weapons and sensors, based on fixed and 
mobile platforms, to counter a range of ballistic missiles. This block 
will include C\2\BM components that enable integrated control of all 
system assets throughout the battlespace. Primary development projects 
include adding boost phase weapons to the Test Bed, integrating space 
sensor platforms, and fusing multi-sensor discrimination products. We 
will integrate capability-based targets and payload suites (to include 
new and more complex countermeasures) into our system testing to 
demonstrate effectiveness against evolving threats.
    We are requesting $572 million in fiscal year 2004 to support RDT&E 
for Block 2008. Our estimated expenditure for Block 2008 activities 
across the FYDP is $16.3 billion (see Table 3).

                                                    TABLE 3.--BLOCK 2008 FUNDING FISCAL YEAR 2002-09
                                                                   ($M then-year) \1\
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                       Fiscal year--                                    FYDP     Totals
                                                     --------------------------------------------------------------------------------  fiscal    fiscal
                       Project                                                                                                          year      year
                                                        2002      2003      2004      2005      2006      2007      2008      2009     2004-09   2002-09
--------------------------------------------------------------------------------------------------------------------------------------------------------
C\2\BMC Block 2008..................................  ........  ........         1        12        27       144       145       147       476       476
Hercules Block 2008.................................  ........  ........        19        17        17        17        62        60       192       192
Joint Warfighter Support Block 2008.................  ........  ........  ........  ........  ........        12        29        31        71        71
Test & Evaluation Block 2008........................  ........  ........         1         1         4        13        85        87       190       190
Targets & CM Block 2008.............................  ........  ........  ........        57        77        68       239       253       694       694
THAAD Block 2008....................................  ........  ........  ........  ........       237       227       369       300     1,134     1,134
GMD Block 2008......................................  ........  ........  ........  ........  ........  ........       878       877     1,756     1,756
AEGIS BMD Block 2008................................  ........  ........  ........       116       186       322       470       386     1,481     1,481
ABL Block 2008......................................        11       237       256       402       582       561       366       267     2,435     2,683
BMDS Radars Block 2008..............................  ........  ........  ........  ........  ........       136       102        22       261       261
STSS Blk 2008.......................................  ........  ........  ........  ........  ........        82       177        89       348       348
BMDS Interceptor Block 2008.........................        54       100       296       529     1,013     1,562     1,939     1,890     7,229     7,383
                                                     ---------------------------------------------------------------------------------------------------
      TOTAL.........................................        65       337       572     1,134     2,145     3,146     4,862     4,409    16,268    16,669
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Numbers may not add exactly due to rounding.

    Boost Elements.--ABL will integrate new technologies to improve 
performance and lethality and enhance operational suitability. We will 
continue development of promising technologies for insertion into Block 
2008 and beyond and design and develop a system-level ground-test 
facility for ABL. We plan to test a second ABL aircraft in the Test Bed 
during Block 2008.
    Plans also are to develop and integrate a mobile ground-based boost 
phase hit-to-kill capability into the Test Bed for flight-test 
demonstration. We will initiate a space-based test bed development to 
determine the feasibility of intercepting missiles from space. Initial 
on-orbit testing would commence with three to five satellites in Block 
2008.
    Midcourse Elements.--We will conduct up to three GMD flight-tests 
annually to demonstrate advanced engineering and pre-planned equipment 
improvements for the boosters, interceptors, early warning and fire 
control radars, and C\2\BM and communications software builds. We plan 
to enhance the Aegis Weapons System AN/SPY-1 radar to improve 
discrimination for engaging both unitary and separating targets. We 
will assess GMD integration with the BMDS Interceptor and also test the 
interceptor on board an Aegis warship.
    Terminal Elements.--We will complete the development and testing of 
the THAAD weapon system. We are planning up to eight developmental and 
operational-type flight tests to stress interceptor, radar, and C\2\BM 
performance in realistic scenarios that include advanced 
countermeasures.
    Sensors.--Our work will build on the initial BMDS Radar 
configuration and conduct sensor research to improve capabilities and 
develop advanced algorithms. We will improve Family of Radar coverage, 
performance, and flexibility and address vulnerability within the 
context of the overall BMD system global sensor network. STSS 
operations will continue to be integrated with other BMD elements in 
the Test Bed and support enhanced C\2\BM development initiatives. STSS 
will demonstrate the ability to acquire, track, and discriminate 
midcourse objects with space-based infrared sensors.
            Block 2010
    Work in this block will continue spiral development projects for 
weapon and sensor improvements and platform integration. C\2\BM and 
communications improvements will enable highly resolved sensor data to 
be exchanged with all BMD system elements.
    We are requesting $24 million in fiscal year 2004 to support RDT&E 
for Block 2010. Our estimated expenditure for Block 2010 activities 
across the FYDP is $4.7 billion (see Table 4).

                                                    TABLE 4.--BLOCK 2010 FUNDING FISCAL YEAR 2002-09
                                                                   ($M then-year) \1\
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                       Fiscal year--                                    FYDP     Totals
                                                     --------------------------------------------------------------------------------  fiscal    fiscal
                       Project                                                                                                          year      year
                                                        2002      2003      2004      2005      2006      2007      2008      2009     2004-09   2002-09
--------------------------------------------------------------------------------------------------------------------------------------------------------
AEGIS BMD Block 2010................................  ........  ........  ........  ........  ........         8       104       145       257       257
STSS Block 2010/2012................................       179        55        24        44       232       565       750     1,065     2,680     2,914
BMDS Interceptor Block 2010.........................  ........  ........  ........  ........        97       146       585       974     1,803     1,803
                                                     ---------------------------------------------------------------------------------------------------
      TOTAL.........................................       179        55        24        44       329       719     1,439     2,184     4,740     4,974
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Numbers may not add exactly due to rounding.

    Boost Elements.--Block 2010 activities will improve exo-atmospheric 
BMDS Interceptor performance and enable greater basing mode 
flexibility, to include possible adaptation to sea-based platforms. We 
will develop and test an advanced space-based test bed to augment or 
replace the Block 2008 space-based test bed.
    Midcourse Elements.--We will continue flight-testing improved 
weapon and sensor components and work toward the integration of an 
advanced BMDS Interceptor. Aegis BMD will incorporate prior block 
developments into the Navy-developed next-generation, open architecture 
Combat System.
    Terminal Elements.--THAAD will integrate proven technologies to 
enhance its capability against longer range and faster ballistic 
missiles without sacrificing existing mobility and performance. 
Fielding and survivability upgrades also are planned to demonstrate a 
capability against both IRBM and ICBM threats.
    Sensors.--New technologies will be inserted into subsequent STSS 
blocks to provide precise threat tracking and improved discrimination. 
We will develop and launch a satellite with improved sensors integrated 
into the first common satellite bus, and develop and integrate advanced 
ground station equipment and software. The Block 2010 STSS will deliver 
a space-based capability to acquire, track and discriminate ballistic 
missiles based on larger aperture track sensors, increased vehicle 
lifetime, and increased, near-real-time on-board data processing. The 
funding also includes launch services for Block 2010 satellites. C\2\BM 
funding focuses on integrating STSS data into the sensor net.
Mission Area Investments
    Our Mission Area Investments are investments common to the entire 
BMD system that enable us to implement over time our block fielding 
approach. Mission Area Investments maintain core development and 
testing infrastructure and facilitate the integration of future block 
capabilities. The President's Budget requests $1.69 billion in fiscal 
year 2004 for these investments. This program activity accounts for 
about $11.3 billion, or just over 20 percent of the total funding 
estimate across the FYDP. Table 5 provides a detailed breakdown of 
funding for each investment activity.

                                             TABLE 5.--MISSION AREA INVESTMENTS FUNDING FISCAL YEAR 2002-09
                                                                   ($M then-year) \1\
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                       Fiscal year--                                    FYDP     Totals
                                                     --------------------------------------------------------------------------------  fiscal    fiscal
                       Project                                                                                                          year      year
                                                        2002      2003      2004      2005      2006      2007      2008      2009     2004-09   2002-09
--------------------------------------------------------------------------------------------------------------------------------------------------------
System Engineering..................................       236       397       436       474       501       510       580       578     3,079     3,713
C\2\, BM & Communications...........................        16        16       119       125       178       201       204       218     1,045     1,076
Test & Targets......................................       359       332       338       332       328       352       316       333     1,998     2,688
International Programs..............................       211       205       148       215       129       100        89        89       769     1,185
Advanced Concepts...................................       347       176       388       418       363       437       524       534     2,664     3,187
Program Operations..................................       232       170       264       252       283       306       317       333     1,754     2,156
                                                     ---------------------------------------------------------------------------------------------------
      TOTAL.........................................     1,400     1,296     1,692     1,817     1,783     1,904     2,029     2,083    11,309    14,005
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Numbers may not add exactly due to rounding.

    The significant Mission Area Investments are as follows:
            System Engineering
    The System Engineering activity defines, manages, and integrates 
the layered BMD system. Capability-based acquisition requires continual 
assessment of technical and operational alternatives at the component, 
element, and system levels. Our system engineering process assesses and 
determines system design and element contributions and the impact of 
introducing new technologies and operational concepts to ensure 
properly synthesized system blocks. These activities provide the 
technical expertise, tools, and facilities to develop the BMD system 
and maintain an intelligence and research capability to ensure that the 
system evolves in a way that is responsive to known and anticipated 
threats.
    We are increasing our focus on risks related to producibility, 
manufacturing, quality, cost, and schedule of the BMD system elements. 
We dedicate resources to examine the applicability of technology to 
system needs and transition readiness. Industrial and manufacturing 
investment strategies for achieving system affordability and 
facilitating insertion of successive new capabilities are increasingly 
vital to the program.
            Command and Control, Battle Management & Communications 
                    (C\2\BMC)
    Our activities related to C\2\BMC create interoperability among a 
wide variety of legacy systems and emerging elements over joint and 
coalition networks. The C\2\BMC activity will continue development and 
integration of the C\2\BM and communications functions for the BMD 
system. By fielding software development spirals that improve system 
synergism, integration capability, and interoperability with external 
systems, this activity expands the inherent C\2\BM capabilities of 
fielded terminal, midcourse, and boost defenses. Communications funding 
will develop and improve BMD system-wide communication links and sensor 
netting functions to enable enhanced early warning and quicker 
interceptor response times. The Joint National Integration Center 
(JNIC) provides a common environment for the BMD elements to conduct 
experiments, demonstrations, and exercises and is a key-operating 
C\2\BM component of the Test Bed.
            BMD Tests & Targets
    The missile defense program includes significant test and 
evaluation infrastructure, test execution capabilities, and analytical 
tools for program-wide use. The Agency conducts risk reduction, 
developmental, and operational element and component testing as well as 
tests to collect critical measurements, such as plume signatures. We 
also have a rigorous measurements test program to collect data in 
support of design, development, and engineering activities. 
Measurements from dedicated test events and targets of opportunity 
enable us to design components, characterize potential countermeasures, 
test algorithms, undertake lethality and kill assessment, and validate 
our critical models and simulations.
    Investments providing ballistic missile targets, countermeasures, 
and other payloads support our test objectives. Presentation of the 
targets and payloads for flight test events involves designing, 
prototyping, developing, procuring, certifying, and qualifying for 
testing. In fiscal year 2003 we will establish a single prime 
contractor to further enhance system level management of targets and 
countermeasures activities.
    In fiscal year 2004 we will continue to resource critical test 
facilities, launch capabilities, instrumentation, telemetry, 
communications, and safety systems underpinning our testing regime. 
With the enhanced realism of the Test Bed, the increasing complexity of 
our tests, and the escalating tempo of test activity, our investments 
in this area will emphasize flexibility, standardization, and mobility.
            International Programs
    The President has underscored the importance of working with other 
countries to develop missile defenses and provide protection against 
ballistic missile threats. We are building defensive layers that could 
potentially involve a variety of locations around the globe and 
probably involve many other countries. Last summer interagency teams 
briefed key allies on the international participation framework. Today 
we are well along in our discussions with several governments regarding 
their possible participation in the missile defense program and 
improvements in our industrial relationships.
            Advanced Concepts
    We have several Science and Technology (S&T) initiatives to 
increase BMD system firepower and sensor capability and extend the 
engagement battle space of terminal elements. In fiscal year 2004, we 
will continue to focus on the Miniature Kill Vehicle (MKV) project, 
which could lead to a flight-test in fiscal year 2005. Fiscal year 2004 
funding will support investigating Early Detection and Tracking (ELDT) 
technology, Laser/LADAR technologies for improved tracking, weapon 
guidance, and imaging, and technologies for a space-based, high-power 
laser. While our S&T activities are not on a critical path for 
insertion into the BMD system, each one of them is being considered for 
their block enhancement value.
            Program Operations
    Our Program Operations expenses are primarily for government 
personnel performing management support activities, contractors that 
assist in performing these activities, and O&M-like costs associated 
with operations and maintenance at numerous facilities around the 
country, supplies and equipment, communications and printing, travel 
and training, and information technology management.
Management and Oversight
    The missile defense program uses an acquisition approach tailored 
to the unprecedented nature of the technology involved in missile 
defense. We will continue to work very hard to ensure that the program 
has adequate management and congressional oversight. There is an 
improved process in place within the Department that preserves 
management, technical, and financial oversight by cognizant authorities 
on the Senior Executive Council and the Missile Defense Support Group. 
Senior warfighters, including the Joint Requirements Oversight Council, 
have reviewed missile defense objectives and will continue to do so 
several times a year. Internally we have in place configuration 
management procedures, and we produce on a regular basis the necessary 
threat, system, and configuration control documentation to ensure that 
our activities continue to support our development and fielding 
objectives. As directed in the 2002 and 2003 Defense Authorization 
Acts, we have identified cost, schedule, testing, and performance goals 
and developmental baselines in the President's fiscal year 2004 Budget 
justification materials and shown clear linkages between the Agency's 
budget and key performance measures.
Closing
    Mr. Chairman, we are on track with our missile defense program. We 
know that the technology fundamental to the current generation of 
missile defenses works. We have demonstrated many times over the past 
two years that we can collide with a warhead and destroy it. We have 
the confidence to proceed with plans for an initial defense capability. 
A few years ago, I could not have said this to the American people. 
Today I can. We will build confidence in the system over time as we 
invest in the program.
    We also recognize that we have much more work to do to improve the 
BMD system. The architecture we have in 2004 and 2005 will probably be 
very different a decade later, depending on how our RDT&E efforts 
proceed. Our objective continues to be one of improving missile defense 
capability over time. We have made considerable progress in missile 
defense over the past three years. With the President's direction, and 
with your approval of our budget request, we will take another 
important step on that long road before us.
    Thank you, Mr. Chairman.

                           OPENING STATEMENTS

    Senator Stevens. Thank you very much, General.
    I apologize to my colleagues. I had some things in the way, 
and I didn't call on the Senators. Senator Cochran, did you 
have an opening statement?
    Senator Cochran. Mr. Chairman, thank you very much. I will 
be glad to proceed to hear from Mr. Christie. I think they have 
done a great job with this program, but I appreciate the 
recognition.
    Senator Stevens. Senator Shelby.
    Senator Shelby. Same with me. I'd rather hear from the 
witnesses.

                          OPERATIONAL TESTING

    Senator Stevens. Mr. Christie.
    Mr. Christie. Thank you, Mr. Chairman, and distinguished 
members of the committee. I also appreciate this opportunity to 
appear before you today to discuss operational test issues 
involved with building a missile defense testbed that may also 
have some inherent defensive capability.
    Let me emphasize up front my strong support for building 
this testbed as a means of conducting more realistic ballistic 
missile defense testing. It will provide us with an excellent 
capability to test the integrated missile defense system 
against more challenging targets and under more realistic 
engagement conditions. Designed to accomplish this testing 
mission, this testbed will have some limited capabilities to 
defend against an actual threat, depending of course on certain 
assumptions about intelligence of an imminent attack and the 
positioning of sensors to acquire, track, and target the 
threat.
    Regardless of what we call this initial collection of 
equipment, communications, and personnel, the fact remains that 
we must build this test capability and put it in the field 
before we can test the system. Additionally, it is prudent to 
develop operational concepts and to train personnel in concert 
with the testbed's development so that whatever inherent 
capability exists in the testing infrastructure, it could be 
employed to defend the United States in the event of a 
ballistic missile attack.
    I understand and share the concerns raised by several 
members of Congress with the precedent of fielding operational 
systems without adequate operational testing. The Missile 
Defense Agency (MDA) under General Kadish is proceeding with a 
design and development strategy that is very proactive when it 
comes to testing. My staff and I are involved on a daily basis 
with the MDA and the program managers for the various ballistic 
missile defense system developments. We are reviewing test 
plans, participating in planning meetings, witnessing tests, 
providing coordinated advice, and responding in written reports 
to Congress on the adequacy of these testing programs. I have 
access to all the information I need to fulfill these 
responsibilities.
    I have completed my assessment of the PAC-3 initial 
operational test and evaluation and documented the results in a 
classified beyond low rate initial production report that was 
provided to the Congress last November. I have also completed 
my annual assessment of the overall MDA testing programs and 
submitted that report to the appropriate committee of this 
Congress.
    In that report I do conclude that the ground-based 
midcourse defense (GMD) element of the Ballistic Missile 
Defense System (BMDS) has yet to demonstrate operational 
capability. This conclusion is based on the fact that many 
essential components of the GMD element have yet to be built. 
We cannot test the GMD element without these critical 
components and we cannot test it realistically without the 
testbed.
    This was illustrated recently when the exoatmospheric kill 
vehicle failed to separate from the booster in Integrated 
Flight Test 10. MDA subsequently restructured the flight test 
program, eliminating further testing with the old booster 
system. This decision considered the poor performance of the 
surrogate booster system, and the risks of diverting booster 
developers from the objective booster design effort, compared 
with the advantages of gathering additional data from those 
flight tests.
    Beginning later this year and prior to the 2004 decision, 
testing will resume with two flight tests for each of the 
candidate boosters and a risk reduction flight for a target 
launched from Kodiak in Alaska. Intercept testing will continue 
in IFTs-14 and 15, using a new booster motor. This is followed 
by integrated ground testing of the testbed and culminates in a 
system test readiness review.
    Current plans call for three more intercept flights for the 
Aegis Ballistic Missile Defense system prior to the end of 
fiscal year 2004; the first two intercepts against a non-
separating target and the last flight conducted against a 
separating target. Additional flight testing beyond this point 
is still in the planning stage. The purpose of the testbed is 
to establish and define a baseline capability to realistically 
integrate and test components of the BMDS, and to enhance 
capability incrementally through block development.
    The real challenge is to develop an operational concept for 
using this testbed that integrates components of the BMDS as 
they become available in order to evaluate the operational 
capability of the system and to defend against a ballistic 
missile attack, if needed. If we don't develop an operational 
concept and an attack does come, then we will have failed in a 
most serious way. On the other hand, if an effort to refine an 
operational concept for an interim system significantly 
distracts from building the objective system in an expeditious 
fashion, then we risk similar failure against more 
sophisticated threats down the road.
    While the testbed is a research and development system, 
this does not preclude us from addressing operational test and 
evaluation. In fact, it is common for systems in development to 
combine developmental and operational test objectives. The 
testbed, including missiles, will provide us an early 
opportunity to acquire valuable ground test data on intra- and 
interoperability between the command and control center and the 
silo/missile complex; on the system and missile health and 
status built in testing capability; and on system safety, 
reliability, maintainability, and logistics supportability. 
Availability of this data will permit lessons learned from the 
testbed to be considered in improving the objective GMD.
    Every major GMD ground and flight test, both prior to and 
after the 2004 testbed is available, formally addresses both 
developmental testing and operational testing objectives, 
consistent with the maturity level of the system. The Service 
Operational Test Agencies personnel are dedicated to planning 
the details of the operational test portions of these ground 
and flight tests, and analyzing and reporting relevant 
operational test data. My staff is working with these agencies 
to define independent operational plans for the operational 
test activities. I will review and approve these operation test 
and evaluation plans and their associated data requirement. I 
will use both developmental and operational test data as the 
basis for my operational assessment in advising General Kadish 
and the Defense Acquisition Executive. This assessment will 
also be the basis for my annual report to the Congress.
    Mr. Chairman, ladies and gentlemen, my staff has worked 
diligently with the MDA staff to build what I feel is a very 
effective relationship. I will continue to work closely with 
General Kadish to ensure that the mission of the testbed, as a 
testbed, is kept in perspective. I will continue to monitor 
planning and testing activities to ensure that we test as 
realistically and as thoroughly as we can, advise the Director, 
MDA of operational testing concerns, and report my assessments 
of progress to the Secretary and to you.
    This concludes my opening remarks and I welcome your 
questions.
    [The statement follows:]
                Prepared Statement of Thomas P. Christie
    Mr. Chairman, Senator Inouye and distinguished members of the 
committee, I appreciate this opportunity to appear before you today and 
discuss operational test issues involved with building a missile 
defense testbed that may also have some limited inherent defensive 
capability. Let me emphasize up front that I strongly support building 
this testbed as a means of conducting more realistic ballistic missile 
defense testing. It will provide us with an excellent capability to 
test the integrated Ballistic Missile Defense System (BMDS) against 
more challenging targets under more realistic engagement conditions. 
Designed to accomplish this testing mission, this testbed will have 
some limited capability to defend against an actual threat, depending, 
of course, on certain assumptions about intelligence of an imminent 
attack and the positioning of sensors to acquire, track, and target the 
threat.
    Regardless of what we call this initial collection of equipment, 
communications, and personnel, the fact remains that we must build this 
test capability and put it in the field before we can test the system. 
Additionally, it is prudent to develop operational concepts and train 
personnel in concert with the testbed's development, so that whatever 
inherent capability exists in the testing infrastructure could be 
employed to defend the United States in the event of a ballistic 
missile attack.
    I understand and share the concerns raised by members of Congress 
with the precedent of fielding operational systems without adequate 
operational testing. Let me take a moment here to discuss my assessment 
of this situation.
    The Missile Defense Agency under General Kadish is proceeding with 
a design and development strategy that is very proactive when it comes 
to testing. My staff and I are involved on a daily basis with the 
Missile Defense Agency and the program managers for the Ballistic 
Missile Defense System elements. We are reviewing test plans, 
participating in planning meetings, witnessing tests, providing 
coordinated advice, and responding in written reports to Congress on 
the adequacy of the testing programs. I have access to all the 
information I need to fulfill these responsibilities.
    I have completed my assessment of the PAC-3 Initial Operational 
Test and Evaluation test results, which is documented in a classified 
Beyond Low Rate Initial Production report, provided last November to 
the Congress. I have also completed my annual assessment of the MDA 
testing programs and submitted the report to the appropriate committees 
of the Congress. In that report, I conclude that the Ground-based 
Midcourse Defense element of the BMDS in essence has not yet 
demonstrated operational capability. This conclusion is based on the 
fact that many essential components of the GMD element have not yet 
been built. We cannot test the system without these critical 
components, and we cannot test it realistically without the testbed.
    This was illustrated recently, when the exoatmospheric kill vehicle 
(EKV) failed to separate from the booster in Integrated Flight Test-10 
or IFT-10. MDA subsequently restructured the flight test program, 
eliminating further testing with the old booster system. This decision 
considered the poor performance of the surrogate booster system and the 
risks of diverting booster developers from the objective booster design 
effort, compared with the advantages of gathering additional data from 
those flight tests.
    Beginning later this fiscal year and prior to the 2004 decision, 
testing will resume with two test flights for each of the candidate 
boosters and a risk reduction flight for a target launched from the 
Kodiak target launch site in Alaska. Intercept testing will continue in 
IFTs-14 and 15, using the new booster. This is followed by integration 
ground testing of the testbed and culminates in a system test readiness 
review.
    Current plans also call for three more intercept flights for the 
Aegis Ballistic Missile Defense system prior to the end of fiscal year 
2004, with the last flight conducted against a separating threat 
target. Additional flight testing beyond this point is still in the 
planning stage. The purpose of the testbed is to establish and define a 
baseline capability, to realistically integrate and test the components 
of the BMDS, and to enhance capability incrementally, through block 
development.
    The real challenge is to develop an operational concept for using 
the testbed that integrates components of the BMDS as they become 
available, in order to evaluate the operational capability of the 
system and defend against a ballistic missile attack if so needed. If 
we don't develop an operational concept and an attack does come, then 
we will have failed in a most serious way. On the other hand, if an 
effort to refine an operational concept for an interim system 
significantly distracts us from building the objective system in an 
expeditious fashion, then we risk similar failure against more 
sophisticated threats down the road.
    While the testbed is a research and development system, this does 
not preclude us from addressing operational test and evaluation issues. 
In fact, it is common for systems in development to combine 
developmental and operational test objectives. The testbed, including 
missiles, will provide an early opportunity to acquire valuable ground 
test data on intra- and interoperability between the command and 
control center and the silo/missile complex; on the system and missile 
health and status or built in testing capability; and on system safety, 
reliability, maintainability, and logistics supportability. 
Availability of this data will permit lessons learned from the testbed 
to be considered in improving the objective Ground-based Midcourse 
Defense system.
    Every major GMD ground and flight test, both prior to and after the 
2004 testbed is available, formally addresses both developmental 
testing and Operational Testing objectives, consistent with the 
maturity level of the system. The Service Operational Test Agencies 
personnel are dedicated to planning the details of the operational test 
portions of the ground and flight tests, and analyzing and reporting 
relevant operational test data. My staff is working with the 
Operational Test Agencies to define independent evaluation plans for 
the operational test activities. I will review and approve these 
Operational Test and Evaluation plans and their associated data 
requirements. I will use both developmental and operational test data 
as the basis for my operational assessment, in advising General Kadish 
and the Defense Acquisition Executive. This assessment will be the 
basis for my annual report to the Congress.
    Mr. Chairman, Ladies and Gentlemen, my staff has worked diligently 
with the MDA staff to build what I feel is a very effective 
relationship. I will continue to work closely with General Kadish to 
ensure that the mission of the testbed, as a testbed, is kept in 
perspective. I am working with the Service Operational Test Agencies to 
identify data requirements for an operational evaluation plan that I 
will review and approve. I will continue to monitor planning and 
testing activities to ensure that we test as realistically and 
thoroughly as we can, advise the Director, MDA of operational testing 
concerns, and report my assessments of progress to the Secretary and to 
you.
    This concludes my opening remarks and I welcome your questions.

    Senator Stevens. Thank you very much, Mr. Christie. Senator 
Cochran.
    Senator Cochran. Mr. Chairman, thank you very much.
    I first want to congratulate both of you, General Kadish 
and Mr. Christie, for a very workman-like and outstanding 
performance in the duties that you have. This is a very 
challenging task that we have given to you, but I think you 
have demonstrated an ability to use the resources that you have 
been given by the Congress and to develop tests and field some 
very impressive missile defense systems. I think the 
comprehensive approach is the right approach, for long-range 
ballistic missile defense to shorter-range tactical challenges 
that we face, and most recently in Iraq.
    I would like, building on the experience we have had in 
Iraq, to ask you what your assessment is of the missile systems 
that we utilize to protect our troops and population centers in 
the recent conflict. Could you tell us specific observations 
that you have about the efficacy of the PAC group for example, 
and other systems that we may have used?
    General Kadish. Let me start first, Senator Cochran, and 
give you some insight from where we sit on the Patriot as a 
system and Patriot-3 in particular, and Mr. Christie can add to 
it.

                       PATRIOT SYSTEM PERFORMANCE

    As you would expect, a lot of the data that I would like to 
talk about is classified, so I will keep it in the unclassified 
range. But I guess when you look at the performance right now 
of Patriot as a system, which includes earlier versions of 
Patriot as well as Patriot-3, I would characterize the overall 
performance as very encouraging. And the reason I say it that 
way is that I think it is probably more proper for us to 
discuss this when the war is over and we have the chance to 
look in detail at all the engagements of Patriot and Patriot-3 
that occurred during the war.
    Now having said that, I would like to talk about some of 
the things that we really know about the engagements and some 
of the things that we think we know about the engagements.
    What we know about the engagements is that from a ballistic 
missile standpoint, we have engaged I think nine ballistic 
missiles of short range character. In addition, what we know is 
we have engaged those nine targets with a combination of 
Patriot-2s and 3s. And the final thing we know is that they 
didn't hit their targets for one reason or another. There were 
some shots that we let go because they did not threaten any 
particular defended area, but overall, the performance is very 
encouraging from that standpoint that we seem to have engaged 
the targets successfully.
    Now what we think we know enters into a lot of speculation 
because of the data gathering from the war and those kinds of 
things we have ongoing, and it is probably better to wait until 
the end of the war and we will have some more information 
coming in to make definitive statements about it.
    But from every indication I have seen and from the data 
available, we have a pretty good combination and capability 
against these missiles, and effectively it provides a national 
missile defense capability, if you will, for Kuwait and so 
forth.
    In addition to that, I think you know that the Israeli 
system, the Arrow is working in combination with their own 
Patriot-2s and are in country on that side. So overall, the 
performance of Patriot, and particularly Patriot-3, which has 
had two specific engagements against BDMs, has been very very 
good and as expected, but there is a lot of data we have to 
gather to make sure that we can stand behind those statements 
based on the battlefield type of information we're getting.
    But it is a major first step and kind of a microcosm of 
what we are trying to do in missile defense, because I can 
conclude now that if this data proves out to be as I expect, 
that hit-to-kill works in combat conditions, at least against 
short range missiles.
    Senator Cochran. Mr. Christie, do you have any comments?
    Mr. Christie. I would add a couple thoughts to that. You 
have received my classified report of last fall which pointed 
out some problems that we experienced in the initial 
operational testing. I am heartened that it appears some of the 
more serious problems encountered in the operational testing 
had been addressed and fixed by the Army before the deployment. 
While we cannot get into the classified aspects of Patriot 
Performance, it appears to have worked quite well.
    My other comment is that I am concerned about the 
fratricide incidents, and of course they are under 
investigation. We don't know at this point in time whether we 
can blame them on Patriot or blame them on problems with the 
aircraft that were engaged.
    I support General Kadish's statements otherwise.

                U.S. NAVY INTEGRATION IN MISSILE DEFENSE

    Senator Cochran. The other day we had before the committee 
the Chief of Naval Operations (CNO), Vern Clark, and he made 
some comments about the Navy's capabilities that they were 
testing and developing, that he said offered promise for I 
think a midrange defense surveillance system based on cruisers. 
Tell me what your assessment is now of our capabilities and the 
promise that we may be able to utilize the Navy in that way. 
Are you encouraged by the progress of testing programs or do 
you have plans for more aggressive testing in this area to 
prove these systems?
    General Kadish. Yes, Senator. The Aegis system itself is 
part of the testbed that we're talking about here, and the 
early fielding of equipment. We are very encouraged by the SM-3 
successes, which is a component of that system now. We were 
three for three and planning more tests this year and next 
before we actually start building more of these early missiles.
    In addition to that, I will just point out again that in 
the Gulf area, the U.S.S. Higgins has been providing early 
warning cues to the Patriot system for these engagements, which 
is again, the type of integration that we want to see between 
the systems and among the systems to make them work better.
    So, I am very encouraged with the Aegis BMD program and the 
Navy is working very well with us to handle the operations 
impact of having surveillance capability as well as potentially 
a defense against medium range missiles in the 2004 time frame, 
very big steps forward in that regard.
    Senator Cochran. I'm only going to ask one more question 
and then yield to others.

                        MISSILE DEFENSE TESTBED

    The fact that you have made a decision to use the testbed 
in Alaska as a deployed system in fact that would provide our 
Nation some defense or a defense capability against ballistic 
missiles is encouraging to me, and I applaud you for it, and I 
want you to know you have supporters in that decision. And I 
wonder, when do you think you will be able to have the first 
test of that testbed, what is the timetable?
    General Kadish. I think we're still nailing down some of 
the details, but I think it will be in the first quarter of 
calendar year 2005 is when we're planning the first integrated 
test of the testbed with an intercept test. Prior to that time 
we will be doing an awful lot of ground testing, integration 
testing on all the equipment across the board. So if I'm not 
mistaken, I think that's the target time frame.
    Mr. Christie. In particular, we will be using different 
geometries, firing the target from Kodiak with an intercept or 
launching from Vandenberg. That would be the first time we have 
gotten away from the relatively unrealistic geometries used in 
testing to date with the interceptors out of Kwajalein and the 
targets from Vandenberg.
    General Kadish. The plan currently includes, and we're 
still debating this internally, two to three tests a year out 
of the testbed configuration involving intercepts, and many 
more ground tests involved. And we are even starting the 
planning to do multiple systems integration, where we will try 
to do a test against a long-range missile and at the same time 
will try to intercept a medium-range missile with Aegis and 
other types of systems. So that planning is ongoing and we 
haven't nailed all those things down because this is new and 
quite complicated, but that's the direction we're going.
    Senator Cochran. Thank you, Mr. Chairman.
    Senator Stevens. Senator Shelby.

                      MINIATURE KILL VEHICLE (MKV)

    Senator Shelby. General, would you tell us what you can 
about where the development of the miniature kill vehicle, the 
MKV program currently is, and what improvements your 2004 
budget request will allow you to make in this program? And just 
say what you can. I understand where we are.
    General Kadish. The miniature kill vehicle advanced 
development is ongoing. We have an acquisition strategy to put 
contractors on contract to actually build these vehicles and 
start testing them. And I am very encouraged by the whole 
process. In fact, we're looking even closer at how we can do 
that better than where we started because of what we found out 
over the past year.
    And the budget request supports that effort in the overall 
process, and we're looking cautiously optimistic about having 
that added to the architecture in the latter part of the 
decade, if we have the success that we expect.

                   STRATEGIC MISSILE DEFENSE COMMAND

    Senator Shelby. What about the role of the SMDC and the 
Technical Center is playing in this? They are right in the 
center of this, are they not?
    General Kadish. That's right. The SMDC and the folks 
surrounding that, particularly in the Huntsville area, have 
been the key to a lot of our successes. In fact when I look 
across the board, we have an awful lot of people counting on us 
across the country, particularly in places like Huntsville and 
others at SMDC, to make it successful. And we only have about 
550 some odd days before we want to actually declare the 
testbed in operational capability, and everyone is working hard 
to make that work.
    Senator Shelby. General, do you feel pretty confident that 
the mission of the MKV is on track to meet your flight 
experience test goal in 2005.
    General Kadish. I do, Senator. It's not going to be easy.
    Senator Shelby. Like Senator Cochran says, it's a real 
challenge but, you have been meeting those challenges.
    General Kadish. We have, and I'm confident in our planning 
and the management approach that we're taking, it all comes 
down to people in the end, and we have some good people.
    Senator Shelby. General, I fully support the President's 
plan to field initial BMD capabilities in 2004. Establishing 
the testbed is a critical step for the ground-based missile 
defense strategy. This initial BMD strategy will set the stage 
as we have been talking about, for a more robust and realistic 
testing of ground integration of the future layered ballistic 
missile defense capability. I expect there's enormous 
complexity to this program, more than complex, I guess, and 
want you to succeed.

                    GROUND BASED MID-COURSE DEFENSE

    But some of us are concerned about the health of the 
ground-based midcourse defense segment. I am concerned that the 
GMD segment has been used to cover other funding requirements 
within the MDA, to the extent that near-term objectives are 
threatened. Is the GMD segment currently facing a budget 
shortfall and if so, how large?
    General Kadish. Well, Senator, we always have more 
requirements than we do funding. So starting from that premise, 
as I look at the GMD budget, we have increased the budget over 
our last year's request in the 2004 column by about $400 
million. We have added some tasks to make the operational 
testbed portion of this, and I would say that overall in every 
program, we rebalanced and reallocated, and it was somewhere 
around $400 million to $800 million that had to be readjusted, 
but there is a net increase to the overall budget in GMD. And 
it's a matter of prioritizing the tasks to be done, and at this 
point in time, I believe our request is adequate for what we 
have set out to do. However, just like any other program, if we 
run into problems and we have issues that we have to use money, 
we're going to have to make some tough decisions in the overall 
process.
    Senator Shelby. Do you believe that you will be able to 
meet your deployment testing and development objectives of GMD?
    General Kadish. I believe we can under the current 
framework, and I will be the first to let you know if we run 
short.
    Senator Shelby. Yes, sir, let this committee know.
    General Kadish. Yes, sir.

                           MDA NATIONAL TEAM

    Senator Shelby. Lastly, we are concerned about the impact 
of the National Team. Is it fair to say that the National Team 
is central to the MDA's ability to accomplish its mission?
    General Kadish. I believe it is, and we have been--there is 
some misunderstanding about what I mean by the National Team. 
What I mean by the National Team is it includes government, 
contractors, industry members across MDA to pull together and 
do the hard engineering among and between the systems. And 
quite frankly, I don't know how to get the technical job done 
without that kind of effort.
    And we have been 14 or 15 months into it. I would like it 
to be a little further downstream in terms of our ability to 
solve some of the problems.
    Senator Shelby. Is that your major concern?
    General Kadish. I think so, it's a major concern, but you 
know, from a realistic standpoint, I think we're doing about as 
good as we possibly could do at this point in the process. And 
by this time next year, I think we will be much better off than 
we are today in that regard.
    Senator Shelby. General, we appreciate the job you're doing 
and the leadership that you have shown. Thank you, Mr. 
Chairman.
    Senator Stevens. Senator Inouye.
    Senator Inouye. Thank you very much. I regret that I was 
late, Mr. Chairman, and I request that my statement be made 
part of the record.
    Senator Stevens. It will be.
    [The statement follows:]

             Prepared Statement of Senator Daniel K. Inouye

    Today I am pleased to join our Chairman in welcoming to the 
committee Lieutenant General Ronald T. Kadish, Director of the 
Missile Defense Agency and Mr. Thomas Christie, Director of 
Operational Test and Evaluation.
    Missile defense is, of course, a program of great interest 
to many, and one not without controversy. Indeed, the missile 
defense program is one of the most critical national security 
issues of today and for the foreseeable future.
    There is no question that the ballistic missile threat 
against our nation and our troops in the field will continue to 
grow as technologies to develop and acquire ballistic missiles 
continues to proliferate.
    The question our country faces is how best to meet this 
threat. The administration's plan calls for a ``layered'' 
defense to intercept ballistic missiles of all ranges, and in 
all phases of flight to defend the United States, our allies 
and friends, and our deployed forces around the world.
    This is an expensive program. The fiscal year 2004 budget 
request includes over $7.7 billion for the Missile Defense 
Agency. It is also a complex program. Despite successes in 
recent tests--and for that I commend you both--there are still 
many technological hurdles to overcome.
    Let me assure you, General Kadish, this committee views the 
missile defense program as critically important to our national 
security. And we will do our best to support your efforts. 
Nevertheless, given the risks and costs of this program we will 
remain ever vigilant in our oversight.
    Today's hearing provides the committee an important 
opportunity to understand the Department's fiscal year 2004 
budget request and the priorities and challenges of the missile 
defense program.
    Gentlemen, we welcome your testimony.

                          AIRBORNE LASER (ABL)

    Senator Inouye. General, can you give us an update to the 
status of the airborne laser, its cost, its schedule, the so-
called weight increase, and why the funds were less for 2004 
than this year?
    General Kadish. Senator, the overall situation in the ABL 
is that I guess I would characterize it is we are cautiously 
optimistic about our ability to execute the ABL effort. We have 
about 18 percent of the effort left to go if you measure it in 
terms of the cost versus the tasks that we think we have to do. 
So, about 80 percent done or thereabouts, with the toughest 18 
percent to go.
    From a cost standpoint, I believe we have enough budget to 
handle the program as we currently understand it. We are 
heading towards a shoot-down of a ballistic missile sometime in 
the 18 to 20 month timeframe ahead of us. We're working that 
schedule hard every day because when, if you look at Edwards 
Air Force Base where we have all the hardware coming together, 
it's all out there and we're putting it in the ground, and the 
system that we have there in the carcass of a 747.
    One of the things I'm looking forward to right now this 
year is something we call ``first light''. That is, when we get 
the laser to work in the ground-based configuration that we 
have, and then we're going to put it in the airplane and do it 
in the air, prior to shoot-down. If we accomplish that first 
light this year, my confidence in meeting our scheduled goal of 
18 to 24 months or thereabouts to do the shoot-down will go up 
tremendously.
    So that's what I'm looking for next, and we're having some 
technical issues meeting those schedules, but I think on 
balance we're doing pretty good given the technology.
    There's this issue that kind of surrounds the program about 
the weight of the laser modules in the airplane. Now certainly, 
I would invite the committee members to go out to Edwards to 
see this technical marvel, in my opinion. If you look in the 
back of that 747, you can imagine how big the back of this 
cargo airplane is. We fill up that cargo airplane with a lot of 
plumbing and a lot of exotic material, and things that produce 
this laser and the beam surrounding it.
    The weight issue gets down to how heavy all this equipment 
is for the overall airplane, and the fact that some of it is in 
a certain part of the airplane. And you can overgross a part of 
an airplane in terms of its floor weighting and that type of 
thing, but not affect the overall weight of the airplane and 
how it flies. So it's a complex interaction but the way I would 
say it is, the weight issue is really not a problem with the 
lasers, from my opinion. We know what it is.
    What it affects is how long it flies; instead of 4 hours it 
may be 3\1/2\ hours before refueling. And we know that it meets 
the individual weight requirement for where we put it in the 
airplane. So it's pretty heavy for the spot we put it in, but 
it's still okay for the overall weight. Now what it means for 
the long-term health of ABL is whether or not we can make the 
airplane stay airborne longer from the overall operational 
context, and certainly that will be desirable. But my main goal 
right now, along with the many hundreds of people working that 
program, is to make the laser work and shoot down a missile 
with it, and the weight issue is not preventing us from doing 
that and in fact is not something that we're worried about too 
much for this configuration, it will be for later.
    The budget request for fiscal year 2004, I think is a 
little bit less than what we asked for last year, but that 
reflects the fact that we want to be finished with this 
particular part of the program in the fiscal year 2004 time 
frame.
    Now we're going to have to look at our performance on the 
airplane to see whether or not we're actually going to finish 
on time. As I said, we still have some uncertainty between 18 
to 24 months, or when exactly that shoot-down is going to 
occur. But to sum it all up, I am cautiously optimistic.
    The cost issue, we potentially could overrun somewhere 
between 15 to 20 percent on the program. We have enough budget 
to cover the program effort and we are right on the edge of 
making this very revolutionary technology to prove itself or 
fail, and we just don't know the answer to that question, yet.
    Senator Inouye. So we should not be too concerned about 
your reduction in the request?
    General Kadish. At least not right now, Senator. It's kind 
of like I was telling Senator Shelby about the ground based. It 
will depend on how well we can execute this year's budget for 
ABL, and I think we have enough money now.

                        NAVY INTEGRATING, AEGIS

    Senator Inouye. What is your arrangement with the Navy on 
the Aegis system? There's a cruiser under your command isn't 
there?
    General Kadish. That's right. We needed to have a dedicated 
vessel to do a lot of our testing for Aegis and in talking with 
the Navy senior leadership, particularly the CNO, Admiral 
Clark, we came to an arrangement where the Navy will actually 
give us a cruiser to use for full-time testing. And they are 
also working, having operational ships doing the mission for 
the testbed that we described earlier. So we have been making 
pretty good progress and we have the assets now, and we can do 
the job.
    Senator Inouye. So you would say you are pleased with the 
agreement so far?
    General Kadish. Yes, sir, very pleased.
    Senator Inouye. Thank you very much. Thank you, Mr. 
Chairman.

                             LASER FUNDING

    Senator Stevens. Thank you, Senator.
    General, I'm a little concerned about the reduction in 
laser money funding too. Is there any real reason for that in 
terms of, was that your decision or was that a decision of 
others?
    General Kadish. Well, Senator, that was done internally at 
MDA and we basically made the allocation decisions I guess over 
the past 6 or 8 months, and that's what you're seeing in the 
final budget release. But as I said earlier, the time 
difference between when we put the budget together and the 
execution of the program may yield a different answer, but 
right now I believe we have enough dollars to do the job. I 
could get back with you later, both you and Senator Inouye, 
with details of that for the record, and talk to you about it.
    [The information follows:]

                             Airborne Laser

    We were able to rephase ABL's fiscal year 2004 and fiscal 
year 2005 funding between the submittals of PB03 and PB04. The 
fiscal year 2004 reduction from $830 million to $610 million is 
due primarily to the ``just in time'' payment schedule of the 
``Green aircraft'' in fiscal year 2005 and stretching of the 
iron bird funding and a better definition of the Block 2004 
requirements.

                        MDA TESTBED, FORT GREELY

    Senator Stevens. Is your Initial Operational Capability 
(IOC) for Fort Greely still the same?
    General Kadish. It is.
    Senator Stevens. For 2004 or 2005?
    General Kadish. We're heading--I have to be more precise in 
order to manage the program and set goals, so our precise date 
is September 30, 2004. Now recognize that date could move 
depending on the problems we deal with in execution, but we are 
driving the schedules to that date on balance.
    Senator Stevens. And how many interceptors does that call 
for at Fort Greely?
    General Kadish. That's up to 10 interceptors.
    Senator Stevens. Will there be any interceptors at Kodiak?
    General Kadish. No, sir.
    Senator Stevens. Will there be any at Vandenberg?
    General Kadish. There will be four at Vandenberg and six at 
Fort Greely, and then the next year we add 10 to Fort Greely.

                             AIRBORNE LASER

    Senator Stevens. Back to the laser. Do you have a schedule 
for that in terms of what its IOC is?
    General Kadish. I guess the way, the sort of short answer 
is no right now, because we have to actually do the 
demonstration and the test before we can be confident on when 
we can actually build more of those systems. But another way to 
look at it is that once we have the shoot-down with the 
airplane that we have today, we will have a basic capability in 
that airplane if it's needed for other reasons, just like we do 
with the ground-based testbed.
    So, a prerequisite for me to answer that question with some 
certainty is when we actually demonstrate the capability to 
shoot down a missile with high energy laser from that airplane, 
we could make a decision on whether or not we should proceed or 
how we should proceed to build more of those systems. That 
planning is ongoing now but we haven't nailed down a date. I 
would assert that it would be as soon as practical if it's 
successful, because it's such a big addition to the overall 
architecture.

                         BOOST VEHICLE TESTING

    Senator Stevens. Our staff tells me that the Director of 
Operational Test & Evaluation (DOT&E) fiscal year 2002 Annual 
Report indicates that testing of boost vehicles thus far has 
been limited to relatively low velocity intercepts, which tests 
only a small portion of the threat engagement space. What's 
your comment on that? Why is that?
    General Kadish. That's true. This gets back to having the 
test geometry that flies our targets out of Vandenberg and 
intercepts the interceptors out of Kwajalein. Two years ago we 
didn't know whether hit-to-kill could actually work, so what we 
were trying to do with that basic test geometry is to show that 
it not only can work but it can repeatedly do it in the same 
geometry. We have proven that.
    So it is true that the overall envelope, if you will, all 
the different points that we could actually possibly intercept 
an incoming missile, has not been tested. But the key element 
of whether or not we could do it at all and do it reliably has 
been tested in a very small part of that envelope. Now we have 
models and simulations that tell us that all the other parts of 
the envelope, even with that limited amount of testing, we 
could be confident to some degree that this thing would work if 
it was in the right place and deployed configuration.
    So I think this is a natural progression, and that is why 
we need the testbed, so that we could take different geometries 
and plot them within the overall envelope, and then we would 
have more confidence in our computer models and simulations, 
even more than we do today, that it's accurate with real data.
    So, we started out very legitimately with what we are 
testing today, and that provides us some data but it's directed 
to a very limited part of the envelope. Now we want to build a 
testbed and over the next few years fill out the rest of it, 
and that will give us more confidence in our operational 
capabilities.

                    PATRIOT FRIENDLY FIRE INCIDENTS

    Senator Stevens. Turning to Patriot, there have been two 
instances in Iraq where the Patriot has really locked on to 
friendly force equipment. It was explained to us that that was 
the result of a failure of the use of proper Identification, 
Friend or Foe (IFF) codes. Is that true?
    General Kadish. Well, certainly that might be a 
contributor, but I just don't think we know yet based on all 
the things that we need to have from the investigation of that 
problem. Now certainly what we call combat identification, 
which these IFF codes help us with, has been a problem for 
friendly fire incidents for a long time, and any system like 
this has to deal with it. But I don't think we can definitively 
answer that question until we get the investigation over with 
and we get the ops tempo of the war to the point where we can 
do even more investigation on it.
    Senator Stevens. Have we ever tested the Patriot-3 against 
Scuds?
    General Kadish. Yes, Senator, we have, and Scud-type 
materials, and we have a pretty good characterization of what 
we think Patriot-3 can do against those types of threats. Going 
beyond that, I would prefer to give you more classified 
information on that.

                      PATRIOT TESTING/PERFORMANCE

    Senator Stevens. I'm just interested in whether we have 
really explored the full capability and envelope on what the 
Patriot should be relied upon and whether there is a gap there 
in terms of our basic missile defense system.
    General Kadish. I would say that with the testing we've 
done, we have anchored the models and simulations. I think 
maybe Mr. Christie could add some comments to this, but we have 
a pretty good analytical capability anchored in actual test 
data on the capabilities of Patriot-3.
    Senator Stevens. Mr. Christie?
    Mr. Christie. As I stated earlier, we forwarded a 
classified report to Congress last November which is explicit 
as far as the PAC-3 system's demonstrated capabilities and 
against the various threat targets, that we feel confident 
about.
    Senator Stevens. I'm not familiar with that report. Did you 
give it to the Armed Services Committee?
    Mr. Christie. That was a report sent to Congress in 
November 2002, and we can certainly make sure that you get a 
copy.
    The report was based on the testing that was done prior to 
that time, the initial operational testing for PAC-3. PAC-2 was 
used during those tests also. As I stated earlier, problems 
that we encountered in testing, the Army took action to clear 
up. Without getting into detail, I would recommend that you 
take a look at the classified report.

                         SEA BASED X-BAND RADAR

    Senator Stevens. I will. Those are PAC-3s that are over 
there now, right?
    Mr. Christie. Yes. I think we have fired four.
    General Kadish. We have fired four PAC-3s, but most of the 
engagements have involved the PAC-2 version in the blast 
fragmentation activities, so it's an integrated system, and 
they've used it to good advantage. One of the reasons we're not 
using only PAC-3s in my view is that we just don't have enough 
of them in the initial production, and I think the PAC-2 is 
handling it.
    Senator Stevens. You know, I feel a little responsible for 
that to a certain extent, given that we asked the question of 
why it should be used solely against an incoming vehicle, I 
remember that, but we asked the military to boot it up to a 
PAC-2 level and now this PAC-3 level.
    But I really don't totally understand the problem of 
interception with a combat identification or IFF concept. Maybe 
we ought to talk about that in classified session.
    General Kadish. I think that would be helpful.
    Senator Stevens. Why don't we do that, and I want to ask is 
whether that's a defect in the system or a defect in the 
application of the system.
    General Kadish. I think it may be both, it could possibly 
be both.
    Mr. Christie. There are investigations underway into each 
of the three incidents. I think we should wait until they are 
complete before we begin jumping to conclusions as to where the 
fault lies.
    Senator Stevens. You talked before about this in terms of 
the sea-based X-band radar concept. Where does that stand now 
and where is the platform?
    General Kadish. The sea-based approach is ongoing and they 
are doing the engineering and naval architecture and everything 
they need to do to build that radar. I believe the platform is 
about ready to be brought to the United States for construction 
and modification, and we're on the verge of doing that.
    Senator Stevens. What's the time frame on that?
    General Kadish. I believe that's imminent. I would have to 
get you the exact date for the record.
    [The information follows:]

                         Sea-based X-Band Radar

    The SBX platform departed Sandefjord, Norway, under tugboat 
power, on April 25, 2003. It arrived in Brownsville, Texas, on 
May 30, 2003.

    Senator Stevens. This has been significantly accelerated, 
as I understand it; is that right?
    General Kadish. I'm not sure it's accelerated, but it's an 
aggressive plan that we had to build this radar. The platform, 
we were planning on doing it by September 2005, have it in the 
testbed and part of the test for architecture.
    Senator Stevens. Is that going to be added or part now of 
the ground-based midcourse defense system?
    General Kadish. From a testbed standpoint, yes, and then we 
will have to decide whether or not it can contribute from an 
operational standpoint.
    Senator Stevens. Is it planned to move that to various 
portions of the world to test it?
    General Kadish. There is a plan to move it all around the 
Pacific, to be a part of the tests that we have been describing 
here. And that's important, because that also has an envelope 
that we have to characterize. And the disadvantage we have now 
with the radar we have in Kwajalein is that it's out of place, 
it's too far back in the trajectory. And these radars are 
rather huge, this is a 5 million pound radar, the construct 
it's going to sit on. And the advantage we have is that we can 
move it around the Pacific, we don't have to place it on land 
somewhere, and then do the types of trajectory tests that we 
need to do. So it's key from that standpoint.
    Senator Stevens. I hate to tell you, General, but my mind 
goes back to the films my son showed me when he was the captain 
of a king crab boat, a 170-footer, in the Pacific facing 30-
foot seas. I hope your people are nautical enough to know what 
you're doing to put that kind of a weight on a barge and trying 
to move it around the North Pacific.
    General Kadish. That's something we're paying a lot of 
attention to, Senator. The last thing we want to do is 
jeopardize that type of an asset. We appear, and I have good 
confidence in the naval architects that are doing this and all 
the contractors involved, and I have seen the data on the 100-
year wave type of activity, and operationally I don't envision 
we would be putting it in that kind of harm's way unless we 
absolutely had to.
    Senator Stevens. Well, respectfully, I don't think you can 
tell you which direction they are going to come from out there. 
That earthquake that hit Hawaii put a tidal wave up our inlet, 
and it came across the sea as a 60-foot wave. Anything that was 
even anchored on shore in either Hawaii or Alaska was destroyed 
and a cruise ship. I really seriously question putting that 
kind of equipment--it's going to be on a platform, it's going 
to be barge-operated, isn't it, pulled by a barge?
    General Kadish. No, it has its own power.
    Senator Stevens. It's self-propelled? What's its dimension, 
do you remember, how wide is it?
    General Kadish. I would have to get the actual numbers for 
the record but I think it's got, the platform on top is at 
least 300 yards wide.
    [The information follows:]

                         Sea-based X-Band Radar

    The SBX platform is self-propelled, and when complete it 
will be able to travel at a maximum rate of approximately 10 
knots. Normal transit speed will be approximately 7 knots. The 
Moss CS-50 platform is 238 feet across at its beam and 389 feet 
long. It is 137 feet tall, from its keel to the main deck.

    Senator Stevens. So it's self-propelled and 300 yards wide?
    General Kadish. This type platform operates in the North 
Sea today doing oil drilling, so it's designed to be 
stationary.
    Senator Stevens. I've seen it; in fact, it's Norwegian.
    General Kadish. That's right.
    Senator Stevens. It has a drilling rig on it, it didn't 
have that kind of weight on it. Well, I'm not going to belabor 
it, but I have serious questions in terms of, you know, the 
shores of Alaska are just loaded with barges which got struck 
broadside by a wave.
    General Kadish. I understand, and we're taking those 
concerns to heart, Senator.

               MEDIUM EXTENDED AIR DEFENSE SYSTEM (MEADS)

    Senator Stevens. With regard to the MEADS concept, this is 
an international program now with Germany and Italy, correct?
    General Kadish. That's correct, Senator.
    Senator Stevens. Last year we transferred that program to 
MDA and this budget transfers it back. Is this going to be a 
ping pong game? Why is it coming back within 1 year?
    General Kadish. Well, I think there are a couple reasons 
for that. One is that the basis of the MEADS program is the 
PAC-3 missile. As a key component we decided to make that 
particular weapons system, and overall it is an international 
practical system designed to take a PAC-3 missile and make the 
radars and the mobility of this system fit our operating style 
for the next decade. It is fundamentally an air defense system 
with a ballistic missile defense capability, basically what 
Patriot is today.
    And so that combination, along with the fact that we're 
using the Patriot-3 missile which we basically developed 
already, makes sense to put it under the management of the 
United States Army as an integrated system, within Patriot, and 
have a transition from Patriot to a MEADS type of configuration 
over time. And we discussed this long and hard within the 
Department, and the overall conclusion is that this is a better 
way to manage the program and I think you will see management 
or program improvements as a result of this process. And from 
an overall funding perspective, it makes sense to integrate 
these programs within the Army, and that's why you see it 
coming back into the Army line.
    It is more than just budget, it is how we manage the 
program. Now, we will still have partnership with the Army over 
its integration into the overall missile defense system and 
we're working that management linkage today. But fundamentally 
it needs to be an air defense and ballistic missile defense 
integrated system, which is best managed with the Army handling 
those issues. I don't know if you wanted to add anything.
    Mr. Christie. No, I agree with that. In fact, we just had a 
review of the program, I guess Monday morning, at which these 
issues were aired in support of the decision to transfer the 
overall management responsibility to the Army because of the 
considerations that General Kadish has outlined here.
    Senator Stevens. Have the current problems we have with 
Germany and Italy at all affected this program?
    General Kadish. I think actually we're coming to the end of 
what we call the Program Definition and Risk Reduction (PDRR) 
phase, the research and development stage of this program, 
getting ready to negotiate the next section of the 
international agreement. And I think overall, they haven't 
affected the execution of the present program in the process. 
Now we may need some adjustments as we go forward into the next 
phase of the program.
    Senator Stevens. This will require a contribution from all 
three countries to affect this newest phase?
    General Kadish. That would be the hope, yes, Senator, so we 
can share some of the development costs with the partners that 
are enrolled. If I recall correctly, I think the cost share is 
somewhere in the neighborhood of 45 percent for our partners 
and 55 percent for us, so if we can really make this 
relationship work, we get a better deal from the overall 
cooperative program.

                          MDA TESTBED--KODIAK

    Senator Stevens. This is my last question. You made a 
comment about the Kodiak phase of this, that there would be no 
interceptors there, just the missiles to be tested, right?
    General Kadish. Targets.
    Senator Stevens. The target missiles; is that right?
    General Kadish. That's the current plan.
    Senator Stevens. Have you put a schedule out for that, so 
we will know in advance how many of those will be tested there?
    General Kadish. I think we're working on the next 2 years, 
and we will get you that information.
    [The information follows:]

                        Kodiak Targets Schedule

    Over the next two years, our current plan shows two tests 
using the Kodiak Launch Complex. A STARS target launch 
conducted as part of a GMD Integrated Flight Test in the 1st 
Qtr fiscal year 2004 and a STARS target launch conducted as 
part of a GMD Risk Reduction Flight in the 4th Qtr fiscal year 
2004. On the first test the target will fly a trajectory 
towards Kwajalein. The second test will include a target flying 
a trajectory toward the open ocean area west of Vandenberg AFB.

    Senator Stevens. I was just wondering, how far out is it 
going, 2 years?
    General Kadish. Right now we're working on the next 2 years 
with the follow-on program right after that.
    Senator Stevens. That's fiscal year 2004?
    General Kadish. Fiscal years 2004 and 2005, and then we 
will work on the next 2-year process as soon as we get that.
    Senator Stevens. Again, I congratulate you. I share Senator 
Cochran's point of view that utilizing the testbed concept and 
having some missiles available, due to the tensions that exist 
in the North Pacific, is a very wise course to be on, and I 
congratulate you for it. You were ahead of the curve on that 
one.
    Certainly with some of the developments taking place over 
there now, I just told Senator Inouye, I went home and talked 
to them about some of the things that have been going on, and 
our people are very worried about what's going on in North 
Korea, and we have every reason to worry about it.
    But we look forward to perhaps getting a schedule, 
gentlemen, if you wish, right after we come back, if we could 
have a classified session, no hearing, just session where you 
might talk to the people here who are really concerned about 
the security phase of this, I would appreciate it.
    General Kadish. I would be more than happy to, Senator.
    Senator Stevens. Senator Cochran, further questions?

               THEATER HIGH ALTITUDE AIR DEFENSE (THAAD)

    Senator Cochran. Thank you, Mr. Chairman, I do have a 
couple more questions. One is about the theater high altitude 
air defense program, which seemed to have gotten off to a 
pretty fast start, and there was some sense of urgency 
following the Gulf War that we needed this system. But it seems 
that it slowed down, and a fairly low risk schedule at this 
point seems to characterize the program. I wonder what your 
plans are for your next intercept test. I understand it's not 
scheduled until fiscal year 2005. Is that going to be a program 
that's going to go slower rather than faster?
    General Kadish. I think, if I may take a crack at that 
first, I think some of the lessons we learned from that in what 
we call the PDRR phase in the latter part of the nineties, we 
took it to heart and as you know, the last two intercepts were 
very successful, gave us great confidence in proceeding with 
THAAD and the program.
    The program we put together basically redesigned the 
missile and the processes involved within THAAD as well as some 
of the radar work to get a much more capable system than what 
we had been working on, even in the PDRR phase.
    That flight test program was laid up, I guess we started 
that in the 2000 time frame, and we have been working real hard 
on that. And the first flight tests are still scheduled for 
late 2004, early 2005, with the first two tests of the missile 
being a non-intercept test.
    And we believe that is exactly the right development 
approach for us to take and there are two reasons for that. One 
is that we're doing extensive ground testing right now at the 
component level so that we can wring out the quality and design 
flaws at the component level before we assemble them and then 
test them in these first two or three flight tests. The second 
reason why I think that's important is that if we are 
successful in doing what I just described, that I would have 
high confidence that our early intercept tests would all be 
successful. And under those conditions, we could move faster 
with the balance of the program than if we had failures in the 
overall sequence.
    So, I'm expecting now that we are about 30 percent and 
climbing complete, almost 40 percent overall finished with this 
design phase, that we will have done the job that I described 
and we will set the foundation for success and that in the end, 
we will have made THAAD in a deployed configuration sooner than 
if he had tried to go faster. And I know that has been a major 
debate, but only time will tell if we were right about that.
    Mr. Christie. I totally agree with that. I think we learned 
some harsh lessons, and in fact that's where the term rush to 
failure was coined in the description of some of the activities 
that we had underway in THAAD. As General Kadish says, we have 
backed up and are doing some component testing which have been 
successful recently, walking before we run and doing this 
right, so when we get to the actual flight tests of the system 
next year, the latter part of next year, we will have 
confidence and we will not encounter some of the problems that 
we had before.

               SPACE TRACKING SURVEILLANCE SYSTEM (STSS)

    General Kadish. And I would add one thing. If we add those 
successes early on, we will find it's taking major risks if we 
accelerate, and we feel that it is adequate.
    Senator Cochran. Last year you restructured the Space Based 
InfraRed System (SBIRS) low program and renamed it STSS. What 
does that stand for?
    General Kadish. Space tracking and surveillance system.
    Senator Cochran. My question is, it seems to be a less 
ambitious program than the earlier version. Do you still think 
that you need to have these advanced tracking systems deployed 
in space, or are you rethinking that entirely?
    General Kadish. I know we're rethinking the combination of 
sensors we have without the treaty now. We want to make sure 
that we have the best combination of sensors, and there is a 
major debate inside the community, if you will, over whether we 
should have space sensors or land-based or terrestrial-based 
radars, or a combination of things based on affordability 
reasons and a whole host of other catch phrases. In my view, 
that debate is not resolved yet, and the STSS program that we 
put together is designed to get us more data than just view 
graphs to base the decision on, and it is important for us to 
proceed in that regard.
    So, we are rethinking the overall sensor requirements for a 
system without treaty restriction. What I see today does not 
dissuade me that we do not need to do--I should probably say 
that I am persuaded that the track we're on is the right track, 
and we need to get these systems better understood. And a 
fundamental issue around STSS is whether the long-wave infrared 
is the appropriate technology to use for that satellite, and we 
will answer that question with the STSS program.
    Senator Cochran. Thank you.
    Senator Stevens. Senator Inouye?
    Senator Inouye. Thank you very much.

                    MISSILE DEFENSE COUNTERMEASURES

    Mr. Christie, some of the critics have suggested that very 
inexpensive countermeasures such as balloons or chaff can foil 
our very expensive missile defense systems. Are we testing more 
complex countermeasures and decoys?
    Mr. Christie. As we go on with our flight tests, yes, we 
will, you know, address more complex countermeasures than we 
have in the past. You know, one has to step back and think, do 
these complex countermeasures, we have a difficult time 
building them ourselves, and we have to wonder what kinds of 
capabilities are really going to be there with the enemy's 
system. But yes, we do plan to get into more complex, more 
difficult countermeasures.
    We, again, in the program or test flights that we've had to 
date, we were trying to demonstrate primarily the hit-to-kill 
capability, and we were using simple countermeasures to get 
some idea about the ability of the seeker to discriminate. And 
again, that was walk before you run, so some of the criticisms 
I think have been misplaced. You can't just jump in with a 
massive countermeasure to defeat the purpose of your original 
test, which was more technology oriented. But as we go along 
with our flight tests, our present plan is to increase the 
complexity of the systems that we are targeting, yes.

                           MDA TEST SCHEDULE

    Senator Inouye. So you're satisfied with your testing 
schedule?
    Mr. Christie. Well, as a tester, one would always want to 
test more, but I understand and support the concepts of the 
plan that we have underway right now, and I think it's so 
important that we get this testbed in place in order to 
overcome some of the artificialities that we have had in our 
testing to date, which the critics have jumped on. This testbed 
will permit us to do far more realistic testing, not just in 
the context of countermeasures, but geometries, velocities that 
we talked about, crossing angles and other parameters that we 
need to be looking at in a more realistic fashion.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Inouye. Like my colleagues, I would like to tell 
you that I am very satisfied with the work your agency is 
doing, and I for one will be in favor of keeping your roles. 
But, as you know, my friend from Alaska and I do live in the 
Pacific, and we do get a little edgy once in a while. Thank 
you.
    Senator Stevens. Any more questions, Senator?
    Senator Cochran. No, sir.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
       Questions Submitted to Lieutenant General Ronald T. Kadish
            Questions Submitted by Senator Dianne Feinstein
                      aggressive testing schedule
    Question. Thomas P. Christie, Director of Operational Test and 
Evaluation for the U.S. Department of Defense, cited the past tests 
lacked realistic positioned midcourse sensor to track incoming enemy 
missiles and variety in test intercept locations, and asserts more 
stringent and improved testing procedures are needed to ensure the 
success of the program.
    Can you confirm that we have in fact embarked on an aggressive 
testing schedule that adequately addresses the real world intercept and 
decoy scenarios a missile defense system may face?
    Answer. Yes, I can confirm that both the ground and flight testing 
that is planned for the BMDS system and its elements are aggressive and 
build in complexity, to include more realistic test geometries and more 
sophisticated countermeasures. One of the characteristics of the 
capabilities based approach is to take manageable steps toward the 
objective system, while learning how to improve performance and expand 
coverage based on its performance during earlier block testing. This is 
particularly important in and evolving threat environment.
                availability of a mature effective bmds
    Question. At our current rate of testing and development, when do 
you think we will have the technological maturity to fully field an 
effective missile defense system?
    Answer. Since the state of threat technology continues to progress, 
we will have to continually improve BMDS performance and verify new 
capabilities through testing. This will include conducting tests 
against new, more challenging targets, and associated countermeasures. 
In this respect, technological maturation will continue even after full 
fielding is realized. If we successfully complete testing that is 
currently scheduled, I believe that we will improve the BMDS and, more 
importantly, our confidence in its performance, so that by the end of 
the decade we will have a well-characterized capability that can be 
relied upon. It is more difficult to predict whether or not 
countermeasures designed to defeat the BMDS will keep pace with 
development.
                     booster enhancements for aegis
    Question. Before deployment, the Sea and Ground Based Mid-Course 
segment will need to improve the effectiveness of the Standard Missile-
3 (SM-3) to intercept ICBMs during the ascent phase of mid-course 
flight. To achieve this, the current SM-3 will need to be larger and 
faster than the current model used for testing.
    Is the improved SM-3 ready for testing?
    Answer. Because the Block 04 Aegis BMD is not intended to engage 
ICBMs, only SRBMs and MRBMs, no propulsion improvements to the SM-3 
missile are currently planned. Consequently, readiness for testing 
becomes moot.
              no aegis boost phase capability in block 04
    Question. If not, will any delay dramatically affect the 
capabilities of the Block 04 system the administration is looking to 
deploy?
    Answer. The lack of an enhanced booster for the Aegis BMD system 
will not affect the capabilities of the Block 04 system. The role of 
Aegis in the Block 04 system will be to provide engagement capability 
against SRBMs and MRBMs, surveillance and tracking of long-range 
targets, automatic search and acquisition of a target from a cue 
provided by an external sensor, and limited ship self defense. The 
target cue provided by Aegis will be used by the Ground-based Midcourse 
element of the Testbed to launch ground-based interceptors at the 
threat. Subsequent block development will include the enhancements to 
the Aegis Weapon System for IRBM capability.
    Question. The 2004 missile defense budget is seeking $7.7 million 
for RDT&E (research, development, test and evaluation).
    Given the high costs that have already been projected for RDT&E, 
based upon current research and success, what do you estimate the 
complete layered system will cost?
    Answer. As directed by the President, we have a near-term 
architecture for a limited missile defense system. A capabilities-based 
architecture provides the flexibility to evolve the system over time in 
response to changes in threat and technology. Fielding opportunities 
occur throughout the development, starting with Block 2004. The cost of 
a ``complete'' system is unknowable at this time because the threat we 
may have to counter is unknowable. We're embarking on an affordable R&D 
program that fields modest capabilities in fiscal year 2004 and then 
improves them over time to keep pace with an evolving threat.
    Question. The completed ballistic missile defense system will need 
to be an overlapping system-of-systems that is reliable, robust, 
capable of incorporating up-grade features as their feasibility is 
demonstrated, and able to engage threats at each stage of their 
employment-boost phase, midcourse, and terminal. The President 
requested to have a missile defense system in place by fiscal year 2004 
and the implementation of a final overlapping system-of-systems by 
fiscal year 2010.
    Based on the current success of the program, do you believe that 
this milestone will be met?
    Answer. We have an aggressive RDT&E program that is on track to 
develop a set of missile defense capabilities for initial defensive 
operations in fiscal year 2004. Our recent testing and analysis gives 
us confidence in responding to the President's December direction to 
deploy an initial capability, and we will continue robust RDT&E to 
build on that initial capability in an evolutionary manner to keep pace 
with emerging threats and technological advances.
    Question. In the fiscal year 2004 budget request, there was a 
request for an exemption of further operational testing of the 
ballistic missile defense system. In March, the Undersecretary of 
Defense, Edward Aldridge announced, ``It was not our intent to waive 
operational testing.''
    If the intent was not to exempt testing prior to fielding the 
weapon system, what was the purpose of the exemption request?
    Answer. The question refers to proposed section 8061, which read in 
full:

    ``Sec. 8061. Funds available to the Department of Defense under the 
heading, `Research, Development, Test and Evaluation, Defense-Wide' may 
be used to develop and field an initial set of missile defense 
capabilities, and such fielding shall be considered to be system 
development and demonstration for purposes of any law governing the 
development and production of a major defense acquisition program. The 
initial set of missile defense capabilities is defined as `Block 04' 
Ballistic Missile Defense system fielded in fiscal year 2004 and 2005. 
Subsequent blocks of missile defense capabilities shall be subject to 
existing laws governing development and production of major defense 
acquisition programs.''

    This was not drafted to waive operational testing, as the fielded 
developmental items will continue to be tested. However, we understand 
concerns that the language ``and such fielding shall be considered to 
be system development and demonstration for purposes of any law'' would 
have that effect, and agree to delete it and all that follows.
    Question. Does testing under the guidelines of the Director of 
Operational Testing and Evaluation negatively impact the program?
    Answer. No, the program is not negatively impacted by DOT&E testing 
guidelines. MDA and DOT&E have established an effective working 
relationship. DOT&E is a member of the Missile Defense Support Group 
and provides testing advice to the Director, MDA and to USD (AT&L). 
Additionally, DOT&E produces a congressionally directed annual report 
on the status and effectiveness of the MDA test program.
    Question. What is the current MDA position on this request?
    Answer. MDA supports striking all after ``capabilities'', so that 
Sec. 8061 will read as follows: ``Funds available to the Department of 
Defense under the heading, `Research, Development, Test and Evaluation, 
Defense-Wide' may be used to develop and field an initial set of 
missile defense capabilities.''
                                 ______
                                 
               Questions Submitted to Thomas P. Christie
           Question Submitted by Senator Kay Bailey Hutchison
    Question. Is the Theater High Altitude Area Defense program 
experiencing a shortfall in funding that will delay the program's 
progress? If so, please explain your plan to remedy the situation.
    Answer. The THAAD program is not experiencing a shortfall in 
funding that would delay the program's progress. The THAAD element just 
completed a program re-plan that provides for the most efficient use of 
resources, the most effective program schedule, and realigns the flight 
tests for a balanced program. The program is progressing well in Block 
04 and executing on plan to initiate Block 04 flight-testing with first 
flight in 4QFY 2004, followed by four additional flight tests to be 
conducted before the end of Block 04 (December 2005). The THAAD program 
is currently engaged in intensive piece part, assembly, and component 
ground testing to assure Block 04 flight test success.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
    Question. Mr. Christie, in your statement, you mentioned your 
initial assessment (annual review) concluding the GMD (Ground-based 
Midcourse Defense) element of the BMDS has not yet demonstrated 
operational capability is based on the fact that many essential 
components of the GMD element have not yet been built.
    What are these components?
    Answer. Booster motors, sea-based radar (x-band), missile silo 
complex at Fort Greely and Vandenberg.
    Question. Are any of these components scheduled for procurement at 
a later block?
    Answer. Booster motors.--Booster motors that are currently under 
development will be used for the Block 2004 Test Bed and initial 
defensive operational capability. Testing of the OSC and BV+ boosters 
is a high priority for MDA, and there will be four flight tests (two 
booster verification flights and two integrated flight tests with 
simulated intercepts) during the rest of this fiscal year.
    SBX.--The SBX is planned to be added to Block 2004 at the end of 
2005.
    Missile silo complex at Fort Greely and VAFB.--The silos at Fort 
Greely are currently under construction as part of the Block 2004 
initial GMD parts of the BMDS Test Bed and IDO capability. The 
additional silos at VAFB will be renovated to support Block 2004 IDO.
    Question. When should we expect the essential components to be 
fielded?
    Answer. Booster motors.--Booster motors will be fielded in the 
initial defensive operational capability no later than September 30, 
2004.
    SBX.--The SBX is planned to be added to Block 2004 at the end of 
2005.
    Missile silo complex at Fort Greely and VAFB.--Six silos at Fort 
Greely and four at VAFB will be a part of the initial defensive 
operations capability fielded in 2004.
    Question. When will the MDS be accurately tested for operational 
capability?
    Answer. With the President's decision to field an initial set of 
missile defense capabilities, we now have a clear, basic, near-term 
architecture for a limited system to address a range of missile 
threats. The initial testbed will be used to test maturing BMD systems 
as they become available to evaluate the operational capability of the 
system.
    Current testing of the Ground-Based Midcourse Defense (GMD) Element 
developmental prototype is structured as combined Developmental 
Testing/Operational Testing (DT/OT), occurring in a Combined Test Force 
(CTF) environment. A CTF environment brings together developmental and 
operational testers from both the prime contractor team and the 
government in a common forum to plan and execute all testing in 
accordance with combined DT and OT objectives to the maximum extent 
practicable. Because GMD is an evolutionary development, at designated 
intervals this process culminates in BMD Elements characterization, 
performed by the Operational Test Agencies (OTAs), i.e., Army Test and 
Evaluation Command (ATEC), Air Force Operational Test and Evaluation 
Center (AFOTEC), and Joint Interoperability Test Command (JITC).
    The Aegis Ballistic Missile Defense Program has a Memorandum of 
Agreement with Commander, Operational Test and Evaluation Force 
(COMOPTEVFOR), the Navy's OTA, to participate in the planning and 
observe all Aegis BMD Block 04 testing. Within 60 days of the 
conclusion of each test, COMOPTEVFOR provides a ``Letter of 
Observation'' which provides formal OTA feedback regarding system 
performance to the Program Director, Aegis BMD. COMOPTEVFOR's 
recommendations are then considered and, if possible, implemented in 
subsequent testing. Flight Mission 9, which is currently the last test 
of the Aegis BMD Block 04 program, is currently being planned as a 
combined DT/OT in that COMOPTEVFOR will conduct a formal Operational 
Assessment of the system.
    Current planning efforts for Initial Defensive Operations (IDO), 
scheduled to be in place on September 30, 2004, include the 
identification of test objectives based upon element interoperability; 
Command and Control, Battle Management, and Communication (C\2\BMC); 
Engagement sequences, and Warfighter operational control issues. These 
will be overlayed onto GMD and Aegis BMD element tests scheduled 
between now and IDO that will afford an opportunity for an operational 
assessment of BMDS Initial Defensive Capability (IDC). Tests will be 
conducted in the BMDS Test Bed with operational configurations and user 
participation.
    Question. Mr. Christie, if the initial fielding of the BMDS is to 
develop a testbed for further research and not employ an actual defense 
system, wouldn't it be more cost effective to complete the testing 
under the initial fielding, with minimum missiles, than to field the 
budget request and have to go back later to retrofit?
    Answer. Before the President's December decision to deploy a 
missile defense, the fiscal year 2003 President's Budget reflected the 
development of a set of test bed capabilities that could be made 
operational. The fiscal year 2004 President's Budget I, based on the 
President's direction, asks Congress to authorize and appropriate funds 
to allow us to add to this test bed and make it operational in 2004. 
Therefore, instead of building a test bed that might be used 
operationally, we are fielding an initial defensive capability that we 
will continue to test.
    There is tremendous benefit to fielding this unprecedented 
technology, in manageable increments, to provide some defense, to learn 
more about it, gain experience with it, and improve it over time. To 
achieve this benefit for MDA and our warfighters, we must have the 
assets and infrastructure in the field if we are going to begin to test 
the system under operationally realistic conditions. If we do not have 
the weapons and sensors fielded at operationally useful locations, we 
cannot realize these benefits and ensure the integrated system works in 
a useful manner for our military.
    Additionally, there is historical precedence in this approach as 
evidenced with development of our first reconnaissance satellites and 
land- and sea-based ballistic missiles. Urgent national security 
requirements pressed us to deploy capability soon, and through trial 
and error we did. The parallels between these pioneering programs and 
the missile defense program are clear.
    Our test bed evolutionary approach to initial defensive capability 
is rational from a cost standpoint as well. We do not now have adequate 
understanding of our long-term architecture to submit a budget for many 
tens of billions of dollars, and we don't need to submit such a budget 
to achieve our goals in the interim. We are able to purchase and field 
capabilities in small numbers and this approach will allow us to 
control costs and mitigate the requirement for retrofitting.
    Finally, we have to strike a balance between our desire for 
perfection in missile defenses that we deploy, and our desire to have, 
as soon as possible, some defensive capability where none exists today.

                          SUBCOMMITTEE RECESS

    Senator Stevens. Thank you very much, General Kadish and 
Mr. Christie. We appreciate you being with us this morning and 
look forward to you talking to us after the recess.
    The subcommittee will next meet on April 30 for the defense 
medical program hearing. Thank you very much.
    [Whereupon, at 11:17 a.m., Wednesday, April 9, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
April 30.]

</pre></body></html>
